<html>
<title> - HOUSE RESOLUTION 834</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-149]
 
        HOUSE RESOLUTION 834--GROUND FORCE READINESS SHORTFALLS

                               __________

                             JOINT HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                          MEETING JOINTLY WITH

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 16, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
43-786 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
LORETTA SANCHEZ, California          MIKE ROGERS, Alabama
ROBERT A. BRADY, Pennsylvania        JOHN M. McHUGH, New York
JIM MARSHALL, Georgia                HOWARD P. ``BUCK'' McKEON, 
MADELEINE Z. BORDALLO, Guam              California
MARK UDALL, Colorado                 ROBIN HAYES, North Carolina
DAN BOREN, Oklahoma                  FRANK A. LoBIONDO, New Jersey
NANCY BOYDA, Kansas                  TOM COLE, Oklahoma
CAROL SHEA-PORTER, New Hampshire     ROB BISHOP, Utah
JOE COURTNEY, Connecticut            TRENT FRANKS, Arizona
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
ELIJAH CUMMINGS, Maryland            ROB WITTMAN, Virginia

                                 ------                                

                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
DAN BOREN, Oklahoma                  ROB BISHOP, Utah
HANK JOHNSON, Georgia                MICHAEL TURNER, Ohio
JOE SESTAK, Pennsylvania             PHIL GINGREY, Georgia
GABRIELLE GIFFORDS, Arizona          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                GEOFF DAVIS, Kentucky
                                     W. TODD AKIN, Missouri
                                     DOUG LAMBORN, Colorado
               Paul Arcangeli, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, April 16, 2008, House Resolution 834--Ground Force 
  Readiness Shortfalls...........................................     1

Appendix:

Wednesday, April 16, 2008........................................    31
                              ----------                              

                       WEDNESDAY, APRIL 16, 2008
        HOUSE RESOLUTION 834--GROUND FORCE READINESS SHORTFALLS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     4
Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     2
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1
Saxton, Hon. Jim, a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................    17

                               WITNESSES

Donnelly, Thomas, Resident Fellow, Foreign and Defense Policy 
  Studies, The American Enterprise Institute.....................    10
Flournoy, Michele A., President, Center for a New American 
  Security.......................................................     6
Korb, Lawrence J., Senior Fellow, Center for American Progress...     8

                                APPENDIX

Prepared Statements:

    Abercrombie, Hon. Neil.......................................    38
    Donnelly, Thomas.............................................    74
    Flournoy, Michele A..........................................    45
    Forbes, Hon. J. Randy........................................    40
    Korb, Lawrence J.............................................    57
    Ortiz, Hon. Solomon P........................................    35
    Saxton, Hon. Jim.............................................    43

Documents Submitted for the Record:

    H. Res. 834..................................................    85

Questions and Answers Submitted for the Record:

    Mr. Loebsack.................................................    93
    Mr. Ortiz....................................................    93
        HOUSE RESOLUTION 834--GROUND FORCE READINESS SHORTFALLS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Readiness Subcommittee, Meeting 
            Jointly with Air and Land Forces Subcommittee, 
            Washington, DC, Wednesday, April 16, 2008.
    The subcommittees met, pursuant to call, at 2:08 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon Ortiz 
(chairman of the Subcommittee on Readiness) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. The meeting will come to order, and we are going 
to see--we don't want to hurry you, gentlemen and ladies, but 
we are going to have some votes in about the next 10 minutes, 
and then I think we might be out for at least 40 minutes, and I 
know that you all have a busy schedule.
    So what we are trying to do now is to get one of the 
delegates who does not vote on the floor votes, and maybe she 
can continue to run the meeting until we come back.
    But we are going to get started.
    Today, we meet in a joint session with the Air and Land 
Forces Subcommittee to discuss and hear testimony on H.R. 834. 
This resolution identifies ground force readiness shortfalls, 
acknowledges the strategic risk and resolves that Congress 
should commit to attempt to restore the health of our ground 
forces.
    The purpose of this resolution and of this hearing today is 
on improving military readiness, about how we, as Members of 
Congress, can restore readiness to ensure a well-trained, well-
equipped ground force for a safe homeland.
    Today, we are here because we are seeking solutions, a way 
forward.
    As we know, the readiness of the ground forces is measured 
in three categories: Equipment, personnel, and training.
    Today, the Army, Marine Corps, National Guard and Reserves 
are reporting lower levels of readiness in all the three 
categories than they were in 2001. This is a fact. No matter 
how you measure it, using Army and Marine Corps current metrics 
to measure readiness against all requirements, there are 
significant shortfalls.
    In previous hearings, we have learned that our troops are 
worn out, and their families are stressed from repeated 
deployments and redeployments. Equipment has been consumed by 
combat and pre-positioned stocks almost depleted. Equipment 
shortfalls and time constraints limit the amount and type of 
training our troops receive as they prepare to protect this 
country.
    While we have the world's best counterinsurgency-trained 
ground force, we do not have a force that is prepared for many 
of the tasks that they could need to support other 
contingencies. This reduced readiness posture has left the 
United States in a risky strategic position.
    At a hearing last week with the Vice Chief of Staff of the 
Army and the Assistant Commandant of the Marine Corps, we heard 
that neither was confident of their respective service's 
ability to deploy to meet other contingency requirements to 
their eyes. This leaves an America more vulnerable than we want 
to be and, more importantly, than we should be.
    What we know is concerning on many levels, but it is the 
unknown that concerns me the most. How would our ground forces 
respond if called upon today for another contingency? Will they 
be trained? Will they have the equipment they need? How long 
will it take for them to respond? And could we support our 
troops once they are engaged, the sustainability part of it? 
And are they prepared for contingencies other than Iraq and 
Afghanistan?
    I commend every one of our soldiers, sailors, airmen and 
Marines serving today. The sacrifices they make are honorable, 
but as General Cody said, ``The awards our soldiers have earned 
reflect the accomplishment and bravery on the battlefield, but 
their valor is not enough to restore balance and readiness to 
our Army.'' He is right. This is our job.
    I ask my colleagues to join me in co-sponsoring H.R. 834 to 
recognize the readiness shortfalls, acknowledge the strategic 
risk and, most importantly, make a commitment to restoring the 
health of the ground forces.
    I look forward to our witnesses today and their testimony 
and hearing their recommendations. And this is one of the 
reasons we are here.
    You know, we are all in the same boat, and we need 
recommendations. We are not here to point fingers at anybody. 
We are trying to see how we can resolve and restore the 
strength of the ground forces.
    And the chair now recognizes my good friend, the 
distinguished gentleman from Virginia, Mr. Forbes, the ranking 
member for the Readiness Subcommittee, for any remarks that he 
would like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 35.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Mr. Chairman, as always, I thank you for your 
leadership, and thank you for this hearing.
    This hearing on H.R. 834 follows a series of hearings this 
committee has recently held focusing on the readiness of our 
forces and our strategic posture. There is no doubt that we 
face an enormous challenge as we work to rebuild, transform and 
grow our armed forces while they are actively engaged in 
combat. However, I am uncertain as to how our soldiers, 
sailors, Marines and airmen will benefit from either this 
hearing or the proposed resolution.
    I do believe, however, that this committee and this 
Congress can take action for the benefit of our troops and 
readiness by passing the fiscal year 2008 supplemental. This 
funding will benefit our troops by growing the force and 
initiating the process of refitting our five combat brigades 
returning from Iraq.
    The Department of Defense (DOD) has gone on the record 
stating that they can continue to operate if they have the 
supplemental by the end of May. However, continuing to operate 
and having the funds needed to operate and improve readiness 
are different targets.
    While testifying before the full House Armed Services 
Committee on February 6, 2008, Secretary Gates stressed that 
funding in the 2008 supplemental request was direct linked to 
the readiness of our military forces. General Magnus and 
General Cody delivered the same message last week.
    During the hearing, General Cody stated, ``This year, we 
didn't get all the money for refit. There is still $7.6 billion 
for the Army sitting out there, and time is not on our side. We 
now have the most brigades deployed that we have ever had 
consuming our equipment. Our depots are running at 26 million 
direct labor hours, and we need that $7.6 billion like in 
October of last year to start buying long lead items, because 
we have got the workforce energized, and then as these five 
brigades come out, be able to rapidly reset so we can start 
getting into the time factor of building a strategic reserve. 
And so when I talk about timely and fully funding, that is 
critical to get back to strategic readiness.''
    General Magnus echoed his remarks when he said, ``Until we 
receive these supplemental funds, the Navy and us cannot put 
under contract for this Nation's industry to build the aircraft 
that we need, the ground combat vehicles and equipment that we 
need, in addition to the personnel and operations and 
maintenance expenses that are needed. Our systems command is 
ready to contract with American industry now, and these are all 
lead time away from delivering some of these systems.''
    In addition to the funds for equipment reset, the 
supplemental also includes $5.4 billion to grow the force. $4.1 
billion of that is for Army efforts and $1.3 billion for the 
Marine Corps. In layman's terms, this equates to more people. 
There is no question our men and women have made tremendous 
sacrifices in defending the Nation since 2001. The resolution 
before us details extended combat hours, limited time at home 
to train, multiple deployments, and personnel shortfalls.
    All of these challenges are real, and they can be mitigated 
with more people. We must take responsibility then for the fact 
that Army and Marine Corps efforts to increase combat forces 
and decrease dwell time are directly tied to the funds in the 
2008 supplemental and the failure of the Congress to act on it 
for more than a year.
    On that note, I met just last week with Major General 
Thiessen, the Assistant Deputy Commandant for program and 
resources for the Marine Corps. He commented that readiness is 
the balance of people, equipment, and time, people with the 
right skills, rank, equipment, and training. We must realize we 
cannot snap our fingers and produce a military that is fully 
ready, regardless of the funds provided. It takes time, 
measured in months, not weeks, to recruit, train, and ready 
soldiers and Marines.
    It also takes time, often 18 months or more, to field the 
equipment our soldiers and Marines need to accomplish their 
missions. Every day that passes without the readiness funding 
included in the 2008 supplemental is one more day that we delay 
gains in strategic readiness.
    To be clear, I do not approach today's hearing seeking to 
minimize the fact that our army is out of balance or that the 
armed services have presented large unfunded requirements to 
the Congress this year. It is time we take responsibility for 
our readiness shortfalls, readiness shortfalls that are 
grounded in decades of an inadequate defense top line and fund 
the needs of our troops.
    For all these reasons, I testified before the House Budget 
Committee that we ought to increase the top line for defense 
spending. As you well know, the budget resolution passed in the 
House included no such increase. Unless we take action on this 
matter of funding, then I believe it is premature to consider 
the resolution before us today.
    Mr. Chairman, I welcome our witnesses and look forward to 
hearing from each of them today, and I yield back the balance 
of my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 40.]
    Mr. Ortiz. Thank you so much.
    Let me just say that the House, our committee, has passed 
the authorizing supplemental, but it is in the Appropriation 
Committee's sight, and they are the ones--and I do agree, you 
know, we do need to get this funding. But it is not that I am 
passing the buck. We have done our job. Now, the gentlemen on 
the Appropriations Committee need to do the same, because, he 
is right, we need to fund it.
    Now, let me yield to my good friend, the Chairman of the 
Air and Land Subcommittee, my good friend from Hawaii, Mr. 
Abercrombie.

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
       HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    To our witnesses, I hope you don't feel it is unfair that 
we are making these opening remarks just at the time the bell 
is going off. The reason for it is, is I think it is important, 
as we receive your testimony, for you to have the context 
within which we are operating in our decision-making, because I 
think it will help you to help us understand where we need to 
go.
    I am especially appreciative of Mr. Forbes' commentary, 
because I reach a different conclusion from that commentary 
than he does about whether or not the resolution is premature. 
We suffer from some very great difficulty here on the 
committee. People like Mr. Forbes knows what he is talking 
about. People on the committee, by definition, are consumed 
with the subject matter that is in front of us. The sad reality 
is, is that many of our colleagues, let alone most of the 
people in the United States, are unaware of the circumstances 
that we are dealing with here today and unaware of the subject 
matter that you will be discussing in your various 
presentations.
    One of the reasons, I believe that we do need to have this 
resolution is not because we don't know it or that we are not 
aware of what is involved in the regular order budget process, 
or the supplemental budgets that have become part and parcel of 
our response where defense is concerned, but that most people 
don't know.
    We want to pass this resolution or get this resolution 
forward to inform our colleagues, the rest of the Congress and, 
by extension, the country as to why we are doing what we are 
doing, what we need to do and, more particularly, from my point 
of view, get away from these supplemental budgets. The very 
things that my good friend, Mr. Forbes cited, are what we 
should be taking up in the regular order of the budget process 
and the regular order of the authorization.
    Think about it, long lead items, building strategic 
reserves, ground combat vehicles, building the necessary air 
carriers that we need to have, growing the force. The failure 
of the Congress to act on the supplemental for over a year now. 
You can't depend on the supplemental budget, you can't start 
mixing up the regular budget order, the regular Department of 
Defense Authorization Act that leads to appropriations and 
become dependent on a supplemental budget which may or may not 
get presented.
    We don't know when it is going to be presented, we don't 
know how it is going to be presented, we don't know what other 
items or elements will come into it in the course of its 
presentation, we don't know when it is going to pass. And yet 
we are talking about strategic elements, such as I have just 
mentioned and such as Mr. Forbes outlined, being dependent on 
as undependable a process as a supplemental budget.
    We need to have a readiness resolution out there that, in 
my judgment, that can explain to our colleagues and explain to 
the American people what is at stake and why we are doing what 
we are doing.
    I have a further comment, Mr. Chairman, that I would like 
to enter into the record, which outlines, essentially, what you 
have said and what Mr. Forbes has said, reiterating it and 
possibly adding some detail. But with your permission, I would 
like to put it in.
    Mr. Ortiz. Hearing no objection, so ordered. The rest of 
your statement will be submitted for the record.
    [The prepared statement of Mr. Abercrombie can be found in 
the Appendix on page 38.]
    Mr. Abercrombie. And I want to echo the chairman's remarks 
that we did not plan on having this vote take place as it is 
right now, and it probably will be 40 minutes, and I am not 
quite sure how we are going to work it now. I would like very 
much to hear the witnesses.
    Mr. Ortiz. I am the same way. And I know that all three of 
you are very, very busy individuals. And one of the reasons why 
we are here is to get your input and to hear from you. I 
understand we are having how many votes? Okay.
    So we should be back, pray to God, we should be back in 
about 15 minutes.
    Is that okay with you, witnesses? Thank you.
    The committee will recess for about 15 minutes
    [Recess.]
    Mr. Ortiz. We are going to see if we can really get going 
now, but since we have a 10-minute debate on a motion to 
recommit and then we have a 50-minute vote, we really didn't 
want to waste your time. I think we need to continue to go on.
    And I would like to submit a statement for the record for 
Mr. Jim Saxton. I hope he comes back in.
    [The prepared statement of Mr. Saxton can be found in the 
Appendix on page 43.]
    Mr. Ortiz. But today we have a panel of distinguished 
witnesses, and we are very happy that you are with us today.
    We have Ms. Flournoy, Michele Flournoy, she is the 
president of the Center for a New American Security; Mr. 
Lawrence J. Korb, Senior Fellow at the Center for American 
Progress; Mr. Thomas Donnelly, Resident Fellow of Foreign and 
Defense Policy Studies at the American Enterprise Institute.
    Without objection, all the witnesses' prepared statements 
will be accepted for the record.
    And, Ms. Flournoy, welcome, and you may proceed with your 
opening remarks that you might have.

 STATEMENT OF MICHELE A. FLOURNOY, PRESIDENT, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Ms. Flournoy. Thank you very much, Chairman Ortiz, Chairman 
Abercrombie and Ranking Member Forbes, members of the 
committee. Thank you very much for holding these hearings and 
for inviting us to speak to you today.
    I want to start by saying I applaud your holding these 
hearings, because I think it is very important that the 
American people become more aware of the significant strains 
and stresses on the force, because that is part of building the 
support that is necessary to fully fund the refit and recovery 
of the U.S. military, which is going on long beyond the current 
force levels in Iraq start to come down, long beyond when the 
supplementals run out.
    So I applaud your calling attention to this issue, because 
I think it is critical to building the political support 
necessary to fully fund the recovery of the U.S. military, 
particularly our ground forces.
    As you all well know, the high tempo of operations in Iraq 
and Afghanistan has taken a substantial toll on the force, 
particularly the Army, the Marine Corps and the National Guard 
and Reserve. Personnel, training, and equipment in these 
components have been under sustained stress for several years 
due to multiple deployments with back-to-back times overseas 
and minimal time in between at home.
    Readiness has kept pace with current operations but just 
barely. And, now, in recent weeks, we have had Army leaders, 
sort of, raising the red flag and warning that the demand for 
forces in Iraq and Afghanistan is actually exceeding what the 
Army can sustainably supply.
    The other key concern I have is that the United States 
currently lacks an adequate strategic reserve of ground forces 
that could be ready and available to respond to other potential 
contingencies that might arise. As a global power with global 
interests, and at a time when we face daunting challenges 
around the globe, I think restoring that strategic reserve of 
ready ground forces is absolutely critical for the United 
States.
    In the interest of time, I am going to pass over some of 
the detailed analysis I have tried to provide in my written 
testimony about how multiple back-to-back deployments with 
little time at home are stressing the force specifically.
    I just would note that while I think it is a very positive 
step that the President has announced that the 15-month tours 
for the Army are now going to return to 12-month tours with 12 
months in between, I just want to note with caution that one-
to-one ration, although it is an improvement over what we have 
had, is not sustainable over time, particularly coming on the 
wake for units that have already had three and four tours 
overseas in a short amount of time.
    I also talked in my statement how compressed training time 
has narrowed the focus of our training to be primary for 
counterinsurgency without enabling units to have the time they 
need to train on the full spectrum of missions.
    I also talk about wear and tear on equipment and how Army 
equipment, for example, is wearing out at up to nine times the 
normal rate, and that is starting to really build the cost of 
refitting the force and recapitalizing the force to quite a 
substantial level and, again, one that is going to be, kind of, 
a bad hangover. It is going to go on beyond the time that 
supplemental funding and be a bill that we have to pay for many 
years going forward.
    Let me just focus on two key areas: recruitment and 
retention. As you all know, the Army has been making its 
overall recruiting and retention targets in recent years, but I 
think there are some very serious challenges that we need to 
pay attention to.
    For the Army, for all of the services, one of the problems 
is on the supply side. Only three in 10 young Americans 
actually meet the educational, moral, and health standards 
required for military service. So that is a very small 
percentage of the population that we are able to recruit from. 
The Army has had, particularly as it tries to grow the force 
and needs to recruit more people, has had a particular 
challenge meeting its own standards. For example, the 
percentage of new recruits that has high school diplomas has 
fallen from the target of being over 90 percent to about 82 
percent in this fiscal year.
    In addition, the Army has had to grant additional numbers 
of waivers, some for medical, some for other reasons but 
particularly so-called moral waivers so that you now have 20 
percent of new recruits receiving a waiver of some kind. Now, 
many of these are for misdemeanors, but I think as the Army 
begins to track the performance of these troops, the record is 
mixed. Some are performing better than average, some are 
performing less. This is a quality issue that we have to pay 
very close attention to over time.
    On retention----
    Mr. Ortiz. You can go ahead. We still have about 10 good 
minutes left.
    Ms. Flournoy. Okay. I will try to be very quick.
    On retention, again, overall target is being met. I think 
there is growing concern, within the Army, particularly, also 
the Marine Corps, about retention of company grade officers. 
Lots of concern about people coming off their third or even 
fourth tours and deciding to leave the service. These 
challenges will grow. As these forces grow, you have to 
actually achieve higher than historical retention rates.
    In my testimony, I tried to, again, underscore the 
challenge that readiness poses for us and to highlight five 
specific steps that the Congress can take. One is to continue 
to support the growth of the force, the growing of the size of 
the Army and the Marine Corps, but to make sure that the pace 
of growth does not exceed our ability to maintain quality that 
really sets our force apart from any other in the world.
    Second, begin to drawdown forces in Iraq over time to 
reduce the level of strains on the force, to increase dwell 
times between deployments, and to make more time for full 
spectrum of training and eventually the ability to both send 
more forces to Afghanistan and reconstitute a ready reserve of 
ground forces.
    Third, reestablish that ready reserve of ground forces, 
absolutely essential to lowering strategic risk for our Nation.
    Fourth, fully fund and continue to fund the reset and force 
expansion, which will become more challenging as supplementals 
come down over time.
    And, finally, rebalance the force for the 21st century. Pay 
close attention to how we allocate growth to the different 
kinds of capability areas and ensure that our forces have the 
mix of capabilities they need for the full spectrum of warfare, 
not just conventional war at the high end.
    In the interest of time, I will conclude my remarks there 
and be happy to take any questions when the time comes.
    Thank you very much.
    [The prepared statement of Ms. Flournoy can be found in the 
Appendix on page 45.]
    Mr. Ortiz. Thank you so much.
    Mr. Korb, you can begin. Somebody just didn't talk to the 
Pope today, and that is why we are having all these votes.
    But go ahead and you can get started, sir.

   STATEMENT OF LAWRENCE J. KORB, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Korb. All right. As you said, my testimony will be 
entered into the record.
    Let me make a few comments.
    Mr. Abercrombie. Can you pull the mike a touch closer, Mr. 
Korb, please?
    Mr. Korb. All right. Let me make a few----
    Mr. Abercrombie. Even closer.
    Mr. Korb. Okay. This is not the first time this has 
happened, and I think it is important to keep in mind, they say 
history doesn't repeat itself, but sometimes it rhymes.
    The Army was broken as a result of Vietnam, and the 
transition to an all-volunteer military when to meet our 
numbers we lowered our standards. And, basically, it took us a 
decade to fix it. I had the privilege of working with President 
Reagan and some of those distinguished gentlemen on the wall, 
as well as people like Senator Nunn, Senator Warner and Senator 
Goldwater on the Senate side to get it back to where it needed 
to be.
    In my view, you are there again. People use euphemisms: 
hollow, out of balance. I mean, the fact of the matter is you 
have a very, very serious problem.
    Now, I want to make a point: How did we get into this? The 
reason we got into this is that we did not have the courage of 
our convictions. I did not support this war, but if you wanted 
to fight it, you had to realize that when we set up the 
volunteer military, we had four pillars. One, a comparatively 
small active duty Army, a guard and reserve that would be a 
bridge to conscription. We did not do that, and because of 
that, we caused the problems that you have to address here. 
Multiple tours, not sufficient dwell time, guard and reserve 
not used as a strategic Reserve but an operational Reserve, 
getting deployed over and over again and then substituting 
private contractors to do military functions. And that is the 
reason we got into it was we didn't have the courage of our 
convictions.
    General Abizaid, the most distinguished commander of the 
Central Command we have had in this war, basically put it well 
when he said, ``The Army was not designed for a long war,'' and 
so we didn't do it.
    So the question becomes, now what do you do? You have got 
two choices, in my view. You want to continue this endless war 
in Iraq, go back to the draft. If you don't want to do that, 
get out of Iraq. Set a responsible deployment plan.
    General Maxwell Taylor, former Army Chief of Staff, 
Chairman of the Joint Chiefs of Staff and Ambassador to Saigon 
said, ``We went to Vietnam, we sent the Army to Vietnam to save 
Vietnam. We took the Army out to save the Army.''
    The late Bill Buckley put it even more succinctly. He said, 
``Had you not gotten out of Vietnam, you wouldn't have won the 
Cold War, and if you don't get out of Iraq, you are not going 
to win the war on terror,'' because as Michele has pointed out, 
and I have in my testimony, you do not have the capacity to do 
the things that you need as long as you are bogged down, and 
you are weakening your military.
    The thing most disturbing is, 13 percent of the people 
coming into the Army in fiscal year 2008 have moral waivers. 
That is the type that you are getting in. We did that in the 
70's to meet our targets, and we had an absolute disaster on 
our hands.
    Now, what to do as you get out of Iraq, I think there are a 
couple of things to keep in mind when you expand the force. You 
should expand the ground forces, because, basically, the Guard 
needs to stay home to guard the homeland, and if you have other 
things, you do not want to rely on them as much. Do not lower 
your quality standards. If you can't get the people, don't do 
it. The Commandant of the Marine Corps in the 70's, Lou Wilson, 
said, ``I don't care if I don't meet my numbers, I am not going 
to take in people I shouldn't,'' and that turned out to be the 
correct strategy in the long run.
    Number two, don't make the force that you expand a mirror 
image of what you have got. You need forces that understand 
peacekeeping and stabilization.
    Number three, do it in a fiscally sound manner. We have got 
too many weapons that deal with threats from a bygone era. Get 
rid of those to pay for the expansion of the ground forces.
    And then, finally, drop of these outmoded social 
restrictions on people who come in. Get rid of, ``Don't ask, 
don't tell,'' okay? Basically, the uniform code of military 
justice is enough to deal with it. We are throwing out people 
who have critical skills that we need, and if you look at all 
of--for example, General Shalikashvili, the Chairman of the 
Joints Chiefs of Staff in the 90's basically said that that 
policy is outmoded.
    And then, finally, drop the restrictions on women in 
combat. You should set specific criteria for every job in the 
military, and they should not be determined by gender.
    Thank you.
    [The prepared statement of Mr. Korb can be found in the 
Appendix on page 57.]
    Mr. Ortiz. Thank you so much.
    We have a couple of votes, and hopefully we will be back in 
the next 10 minutes. Ms. Bordallo will continue with the 
hearing, so take your time when you are making your testimony, 
because we do have some very key members in the audience with 
us today. So we can go vote, and you can continue with the 
hearing.
    Thank you so much.
    Madam Chairwoman.
    Mr. Abercrombie. Mr. Donnelly, I assure you your testimony 
has been gone over by us, and when we come back we will pick on 
you as quick as we can.

  STATEMENT OF THOMAS DONNELLY, RESIDENT FELLOW, FOREIGN AND 
   DEFENSE POLICY STUDIES, THE AMERICAN ENTERPRISE INSTITUTE

    Mr. Donnelly. Mr. Abercrombie, I appreciate that attention. 
[Laughter.]
    As a former staff member, it is always an honor to return 
to this committee room. I look forward to being picked on.
    I am also relieved to be excused from the obligation to 
speed testify, so if we are going to continue, okay.
    Much of what I have to say will be informed by my previous 
service as a committee staff member. When I worked here force 
readiness was something I spent a lot of time on, but also the 
condition of American land forces is something I have spent all 
my career doing.
    And if I may be permitted a bit of shameless commerce, the 
questions that the committee asks are the primary subject of a 
book that my colleague, Fred Kagan, and I will be publishing in 
the next month called, ``Ground Truth: The Future of U.S. Land 
Power.'' So I appreciate your indulgence, even if the chairmen 
aren't here.
    I want to supplement the testimony that Michele and Larry 
gave by trying to give a little bit of a larger context as to 
how we came to this pass. Because if this is a perfect storm, 
it is not something that brewed up just in the last couple of 
years, in fact. There are a number of factors that should be 
considered when contemplating the condition of U.S. land forces 
and the challenges they face today.
    As Larry suggested in his testimony, even the land force 
mission of the Cold War years was kind of an economy of force 
mission. Those units forward stationed in Germany, the five 
divisions that were permanently garrisoned there, were only 
intended to hold the line for a very brief period while further 
active units were deployed. And, as Larry said, the Reserve 
components then would be mobilized and deployed as necessary.
    The Cold War came to an end, and the era of peace then was 
upon us. Certainly, the first Bush administration took as its 
first target for defense reductions the land forces of the 
United States, and Congress went along happily with this. 
Senator Sam Nunn, in particular, allowed that he couldn't find 
any future use or an important future use for large-scale, 
heavily equipped land forces.
    Now, obviously, this drawdown was interrupted by Operation 
Desert Storm, which tended to remind people of the value of 
land forces, more generally, but of heavily equipped land 
forces. But after the war was over and the pace picked up again 
during the Clinton administration years, the process continued 
until the U.S. Army's roles were about 40 percent smaller than 
they were in 1988.
    The 2001 Quadrennial Defense Review process, which was 
conducted by this Bush administration, also planned to 
eliminate two further Army divisions from the active structure, 
but those plans were shelved in the wake of the September 11 
attacks.
    Land forces were also disproportionately, in my judgment, 
targeted during what we came to call the Procurement Holiday of 
the 1990's. That was, in some ways, understandable, because a 
smaller force could live off the accumulated investments of the 
Reagan administration. And it is true that the so-called big 
five procurement programs, things like the M1 tank, the Bradley 
fighting vehicle, Blackhawk and Apache helicopters and so 
forth, were, and continue to remain, the most lethal and modern 
land force systems on the planet. But they got older, and they 
have been used much more rapidly than anticipated, and they 
have been subject to combat conditions rather than just 
training conditions.
    Also, the Army's two signal modernization programs of this 
period, the Comanche helicopter and the Crusader howitzer, fell 
victim, first of all, to lack of funding and then to what we 
have come to know as the defense transformation movement.
    And, indeed, the current Future Combat Systems Program, 
which has now started to generate important new capabilities, 
not only for high technology conventional warfare but the kind 
of irregular warfare that has become the part and parcel of 
U.S. land forces over the last four or five years, has just 
begun to bring those capabilities into the field.
    And, in my judgment, this modernization effort remains 
underfunded, and even if it were more sufficiently funded, it 
would be years before the full effects of the modernization 
effort would be felt.
    But the transformation movement, as promulgated by former 
Secretary Rumsfeld, was based on two insights that don't look 
very good in retrospect. One was about the state of the world, 
that we were in an extended period of so-called strategic 
pause. If that were ever true, it certainly seems to be over 
now, and, certainly, that is true if you are wearing a green 
uniform. Land forces are running as fast as they can to do what 
we ask them to do.
    The second insight was that technologies, and particularly 
information technologies, would reveal a transparent 
battlefield. Former Admiral Bill Owens, who was the Vice Joint 
Chiefs of Staff (JCS) chairman, talked a lot about this 
transparent battlefield, lifting the fog of war. And we thought 
that because we would see the battlefield completely, our 
ability to tailor forces would be more precise and more 
efficient and more effective.
    And, in particular, our land forces might be more valuable 
as nodes in an information network rather than for conducting 
close combat with the enemy. As Chinese theorists who have a 
gift for aphorism came to call it, we thought we had entered an 
era of no contact warfare, and the war in Kosovo seemed to bear 
that out in some sense.
    This really had a whipsawing effect on the U.S. Army, and 
to the degree that the U.S. Army really struggled to be 
relevant to the Kosovo operation, the Army became motivated to 
emphasize the quality of strategic deployability. It was 
worried about its simple ability to get to the fight and 
secondarily about what would happen after they got there. And 
so the Army has transformed itself into a lighter and more 
mobile and a modular force.
    And this has been supplemented by a Marine-like adoption of 
a force generation model that is based on rotational 
deployments, predictable rotational deployments.
    And so we have to understand that the force itself has 
changed the way it measures its own readiness and the kind of 
deployment that particularly the Army has set for itself. So it 
has set itself an entire set of benchmarks that might be less 
relevant today than they were when they were introduced. Today, 
I would submit that the primary question is not how quickly we 
can get to a conflict, but how long we can remain engaged in 
it.
    And, obviously, our initial experiences in Iraq and 
Afghanistan, the very successful initial invasions, seemed to 
suggest that faster and lighter were synonymous with better. 
But if the global war on terror has extended from being a 
global manhunt, as it was often called, into the long war, 
which is more often described as a global counterinsurgency, 
the qualities of sustainability and durability seem much more 
salient than they did when this war began after September 11.
    So I would just say that where we are today is a product of 
events that go back at least 15 years. And as the committee 
considers and submits the resolution for the Congress' 
consideration, while there are many aspects of the resolution 
that I find admirable, there are some more enduring questions 
that need to be answered if we are to dig out of the hold that 
we are in.
    And to conclude very rapidly, I would suggest that whether 
it is a matter of passing the immediate supplemental or 
including the Grow-the-Army initiatives that are in the 
supplemental in long-term regular budget order of planning, it 
is simply going to be a question of whether we are willing to, 
as Larry says, summon the moral courage to pay the price, and 
by which I mean primarily the fiscal price, because there is no 
way that the full burden of this commitment can be shared 
equally across the American people.
    This is a war that demands regular forces, highly 
motivated, well-trained regular forces, and I would just submit 
that we really need to increase the size of the force to meet 
the demands of the war and the admirable impulse to reduce the 
strain on folks cannot be solved by pretending the war isn't as 
large and as long lasting as it is likely to be. We need to 
size the force to meet the commitment, rather than reduce the 
war to meet the size of the force.
    [The prepared statement of Mr. Donnelly can be found in the 
Appendix on page 74.]
    Ms. Bordallo [presiding]. Thank you. Thank you very much, 
Mr. Donnelly.
    I have a couple of questions, and, of course, I do want to 
thank Chairman Ortiz and Chairman Abercrombie for calling this 
hearing and for their leadership overseeing the readiness of 
our armed forces.
    Today's topic about the readiness shortfalls in our ground 
forces is extremely important to all of us. I am one of the 
sponsors of H.R. 834, and I believe that it is important for 
us, as a Congress, to acknowledge that there are some critical 
readiness shortfalls and that we should take the necessary 
actions to correct this.
    And I want to thank all of you, this panel of defense 
policy experts. Thank you for your testimony this afternoon.
    I am particularly concerned about the current levels of 
equipment that are available to the governors of the 50 states 
and the four territories, including Guam. Lieutenant General 
Blum puts it best. He says, ``It takes the people, plus 
equipment, plus training to equal a capability.''
    Nationally, the National Guard only has about 43 percent of 
its equipment on hand and available for use by the commanders 
in chief of the states and the territories and our governors. 
On Guam, we only have a staggering 17 percent of equipment 
available for use by the governor. Obviously, this poses a 
significant challenge to having a viable operational force. The 
equation is out of balance, and we need to fix this problem.
    So I pose this question to any one of you who feels that 
you can answer it. Each year, the President's budget request 
includes a document known as the P1R, which provides a 
breakdown of how much of the service procurement request is 
planned for the National Guard and the Reserves. The annual 
National Guard and Reserve equipment report required under 
Title 10 does not really provide the Congress with an effective 
oversight tool for visibility on whether or not services are, 
in actual fact, sending the money as indicated in the P1R.
    So could you answer this: In your opinion, do you think it 
would be effective if Congress reformatted its Authorization 
and Appropriations Committee conference report to convey 
congressional intent for breakdown of each procurement line for 
active, National Guard and Reserve components? Or would it be 
more beneficial to have a separate procurement account for the 
National Guard and Reserves?
    I would like to hear your thoughts on such ideas for 
potential action.
    Any one of you?
    Mr. Korb. I think given the fact that the Guard has become 
an operational Reserve rather than a strategic Reserve, and, 
obviously, nobody wants to go back to conscription, you need to 
ensure in the appropriation process that the equipment goes 
right to them. Because if you don't, and I can tell you from my 
own days, as they say, in the building, it will go to where the 
overall service wants it. So you need to do that.
    I mean, that is why, for example, Congress created a 
separate Assistant Secretary for Reserve Affairs, because there 
was a concern that if you did not do that, that the voice of 
the Reserves would not be held, and it would get lost in the 
shuffle. That is why Congress created a special operations 
force budget so they could do that.
    So, yes, if you want to do that, I think you need to do 
that, and you also might want to consider--I know other people 
have talked about it--making the head of the National Guard 
Bureau a four-star officer so that he or she can sit at the 
table with the other chiefs.
    Ms. Bordallo. Thank you very much.
    Ms. Flournoy, do you have comments on that?
    Ms. Flournoy. Yes. I have not looked at the specific 
alternatives that you have laid out to have a strong opinion 
over which way is best, but I do agree with the sentiment that 
now that we are turning to the National Guard and Reserves as 
more of an operational force, we need to fundamentally 
reprioritize the equipping of that force. They have been 
consistently underresourced over a period of years.
    The wear and tear that they have experienced in recent 
situations has only exacerbated that problem. And I think even 
current plans to withdraw their equipment only brings them up--
doesn't bring them up to 100 percent of their authorized 
levels. So even the get well plan only gets them about 75 
percent of the way.
    And now that we have the, sort of, transnational terrorism 
and very real risks to our homeland security, not only natural 
disasters like Katrina, but attacks like 9/11, I think the 
strategic importance of the Guard, not only as an operational 
Reserve for missions abroad but as a force for response at 
home, has gone up substantially, and I think we have to adjust 
the way we equip and fund the Guard, accordingly.
    Mr. Donnelly. If I may, I would----
    Ms. Bordallo. Yes, Mr. Donnelly.
    Mr. Donnelly. Thank you. I would agree with the diagnosis 
of the problem. I would be very leery of a separate and 
discrete procurement account, particularly in a time of war, 
and when we have essentially a just-in-time readiness model, 
removing any further flexibility from the Army's ability to 
manage its resources is likely to have unintended second order 
consequences.
    And, also, I think it is important to distinguish between 
the federally organized Army Reserve and the state level 
National Guard units. So I would agree that the need to 
modernize the Guard is more pressing than it has ever been, and 
I would agree with both Michele and Larry's characterization of 
the Guard as an operational Reserve; however, I am not sure 
that, certainly, a discrete and separate procurement account, 
or set of accounts, would not create more problems than it 
solves.
    Ms. Bordallo. Thank you, Mr. Donnelly.
    Well, I can't quite agree with you. I feel that there has 
to be some specific language or whatever--whenever you don't 
have a specific account of something, it is going to be lost in 
the general fund, and I do agree that this is what is happening 
here, and I think this is why the Guard and Reserves are 
shortchanged.
    I have another question here. This, again, is to any one of 
our panelists. As with all the other services, the National 
Guard Bureau publishes an unfunded requirements document every 
year. Every year, it seems the unfunded requirements grow for 
issues like full-time support and training, which are essential 
elements to have a ready and operational force.
    The service components have acknowledged that the National 
Guard is an operational force; however, I am skeptical of the 
financial commitment that is truly needed to make the National 
Guard a truly operational force.
    Short of ending the war in Iraq, what other alternatives or 
actions should Congress look into in order to provide 
additional training dollars for the National Guard? Are there 
any recommendations from the recent National Guard and Reserve 
commission report that could help with this aspect of funding?
    Maybe we will begin with you, Mr. Korb.
    Mr. Korb. The job of the Secretary of Defense and the 
President and the Congress is to set priorities. I don't care 
how much money you are willing to spend, you can't buy perfect 
security. And it seems to me, as you look at the threats that 
the United States faces, the immediate threats, that you have 
got to give priority, as Michele mentioned here, to homeland 
defense. That is now a new mission. You have also got to give 
priority to the fact that the Guard, as you pointed out, is 
going to be used as an operational Reserve.
    So I think, therefore, when you look at the unfunded 
requirements, you have to put them up against things like 
buying weapons systems for an era that no longer exists. We 
still buy an awful lot of weapons that were designed primarily 
for the Cold War and now continue to be justified on the basis 
of some potential future threat.
    So I think that is what you have to do. And as I look at 
the budget that was submitted to Congress this year by the 
administration, they made no hard choice; they just kicked the 
can down the road to the next administration.
    For example, both Secretary Gates and Deputy Secretary 
Gordon England are on record as saying that the production of 
the F/A-22 should stop at 182 or 183 planes, whatever it is, 
but yet they didn't close the production line. So what that 
means is that the Air Force will come back next year and ask 
for more, and that is what we will be competing against, these 
unfunded requirements, which, in my view, should have a higher 
priority, given the immediate threats that we face.
    Ms. Bordallo. Thank you. Thank you very much.
    Ms. Flournoy.
    Ms. Flournoy. I guess I would just echo the priorities of, 
I think, the first task is to restore the Guard's readiness for 
its homeland defense and security missions, because we have no 
backup there. I mean, they are it, given how busy the active 
duty force is, which is usually the backup. So I think that has 
got to be the first priority.
    And the second, I would say, there are parts of the Guard 
that are more stressed than others. The Army has parked a 
number of so-called high-demand, low-density assets in the 
Guard, and those forces are the ones who are seeing the 
particularly high levels of perstempo and optempo, repeated 
deployments and so forth. And I would focus on getting that 
part of the force well, both in terms of time at home for 
personnel and equipment.
    And then I would look to trying to get back to resourcing 
the kinds of sustainable deployment tempos that are in Army 
plans, sort of, five to six years between one-year tours for 
looking at the Guard as an operational reserve, which seem a 
very far, just very distant vision at this point, but I think 
that would be the next priority on my list of things to try to 
get back to.
    Ms. Bordallo. Thank you.
    Mr. Donnelly.
    Mr. Donnelly. Again, I would just say that the active force 
and the Reserve components are so deeply intertwined at this 
point that any solution that targets only a part of the problem 
is almost sure to have unintended consequences.
    So if we want to restore the pace of operations for the 
Reserve components, that, I would agree, is preferable. I think 
the first thing that has to be fixed is the active component 
and particularly the active duty Army. The Marine Corps is now 
essentially embroiled in what are traditional Army long 
duration land force missions.
    So if we want to fix the system, I would say the place to 
start is with the active force, and we have to have some 
patience in order to understand this is going to take a long 
time to remedy the problems that have accumulated over the past 
15 years.
    One of the problems is, is that we don't have a good 
measure for balancing these various risks, the risks of 
fighting abroad, versus the lack of preparedness for homeland 
defense and homeland security.
    So I understand that these shortfalls increase the stress 
on guardsmen and reservists, but I think anything less than a 
holistic approach to the solution runs a very great risk of 
making the thing, in an unintended way, just compounding our 
problems rather than solving them.
    Ms. Bordallo. Thank you, Mr. Donnelly.
    I now have a question, perhaps, Mr. Korb, you would answer 
this. Do you have any suggestions for actions the Congress can 
take to improve readiness beyond the supplemental?
    Mr. Korb. I think what you have to do, again, is to focus 
in the budget on the short-term problems. I think that, for 
example--I will leave personnel aside for a second--you can buy 
equipment, you know it is being worn out. I think that 
Congressman Abercrombie and people like Senator McCain have 
said after more than five years of war in Iraq and six in 
Afghanistan, we should put this stuff in the regular budget. We 
know how much this equipment is being burned up as we go. So 
that should be in the regular budget where it would then have 
to compete with other programs that don't deal with the 
immediate threat.
    And I think that is the way you do it. Once you settle on 
how much money you are going to spend, then I think then you 
can look at the priorities. But what is happening now is you 
are putting a lot of this into the supplemental, and at some 
point the supplementals will end, and when the supplementals 
end, then the question becomes, what happens to these?
    After Vietnam, we did not do that. I mean, after the war in 
Vietnam ended, we did not continue to reset the force, and it 
took us quite a while to be able to get the readiness back to 
where we needed.
    Ms. Bordallo. Thank you. Thank you very much for your 
suggestions, Mr. Korb.
    The chair would like to recognize another one of the 
members of the Readiness Committee, Mr. Saxton, for any 
questions he may have.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Madam Chairlady, I guess I have an observation 
rather than a question, and I will invite the witnesses to 
comment if they would like to.
    I have taken special interest in the resolution, that is 
H.R. 834, which is the subject of this hearing, which goes to 
great lengths to point out the deficiencies, or the perceived 
deficiencies, by those who wrote the resolution in our deployed 
forces and in the forces, as noted in the resolution, that are 
training to deploy.
    And I guess my problem is that we have had two hearings 
previously on this subject, and they were both with 
representatives from the Pentagon. The first hearing was where 
there were representatives from the U.S. Army Reserve and the 
National Guard who concluded that whatever deficiencies there 
are have been remedied to some extent by appropriations, 
usually through supplemental appropriations.
    I noted, for example, that the Army National Guard in 2001 
on equipment had fewer than 290 medium tactical vehicles on 
hand, which was a huge problem. But by the time we held the 
hearing, which was several weeks ago, instead of 290 medium 
tactical vehicles on hand, they had 4,722.
    And when General Cody came in a subsequent hearing and 
talked about the same subject, we asked him how that growth was 
possible, and he said the growth in equipment was possible 
because of the supplemental appropriations bills that we had 
passed, which brings me to this resolution, which points out 
many of the deficiencies, perceived deficiencies, which are 
apparently on their way to being fixed if you believe the Army 
National Guard and subsequently General Cody.
    And that leads me to the question, and I know that the 
gentleman in the chair can't answer this question, because it 
is not his decision, but why in the world we haven't passed the 
proposed supplemental that is languishing in the House is the 
decision, apparently, of the Democrat leadership to delay it or 
perhaps not to pass it.
    So there is a road to a fix for the equipment readiness 
issue, which lies, according to General Cody and according to 
the National Guard representative, General Vaughn, and 
according to the U.S. Army Reserve representative, General 
Stultz, that can be fixed with the supplementals, and we have 
one languishing. And it is beyond me why those who would vote 
for this resolution, or maybe we should, maybe we shouldn't, 
why the leadership of that party will not permit us to vote on 
a supplemental, which is the road to recovery.
    So that is just my observation. I was late and didn't get a 
chance to give an opening statement, so I am venting my 
feelings, and if you care to comment, you are certainly 
welcome.
    Mr. Korb. Congressman, even when you pass the supplemental 
with the Guard, you are not going to solve the whole problem, 
because you need to take a look at the report that Arnold 
Punaro put out and says, yes, this would be a step in the 
direction, but it is not because, according to that report of 
the Commission on the National Guard and Reserves, there is a 
$48 billion equipment shortfall. The money there will move a 
little bit toward it. And according to Arnold, 88 percent of 
all Army National Guard units are not ready. So even this, 
while it would help some, is not going to solve the problem.
    Mr. Saxton. I am delighted that you said it would help 
some, because it certainly would. As a matter of fact, I am 
told that in order to fix the entire problem, that is to bring 
all units up to C1 level, it would cost something in the 
neighborhood of $1 trillion. Well, we are not going to do that. 
We never had done it. That condition has never existed.
    And so it seems to me that if the old saying holds any 
water, that if you are getting yourself in trouble by digging a 
hole, the first thing you ought to do is stop digging and then 
start to climb out. Well, we stopped digging, and we have 
started to climb out through the use of supplementals, and yet 
there is a supplemental which has been proposed, is in a 
position to be voted on, and the leadership of the House will 
not permit us to do that.
    Mr. Ortiz. One of the reasons, like I stated before I left 
this hearing, that we are here because we know we have a 
problem. And going back to the National Guard and the Reserves, 
we have to be realistic. They serve two masters. They respond 
to the needs of the state, and they respond to the needs of the 
Federal Government for deployments whenever they are activated 
and needed.
    The problem that we have now is that some of these National 
Guard and Reserve people have gone and have been deployed, and 
you know what, they came back and they did not bring their 
equipment back. They left it behind, because some of the 
equipment was being destroyed and was being utilized by the 
active Army.
    So now I am going to ask a question here that I had.
    Ms. Flournoy, what is your assessment of the testimony, and 
I am pretty sure you are familiar with it, given last week by 
General Magnus and General Cody concerning ground forces 
readiness, specifically their comments concerning the ground 
force ability to respond to other contingencies that arise? And 
you know what I fear is the unknown.
    Maybe you can respond to the question that I just asked 
about the testimony of both generals.
    Ms. Flournoy. When I heard and then re-read their 
testimonies, it was the closest I have ever heard senior 
leaders in the Marine Corps and the Army come to sounding an 
alarm. It is not in their culture to sound alarms. I mean, you 
give them a certain mission, they are going to die trying to do 
the mission.
    But I think when General Cody said, ``Our readiness is 
being consumed as fast as we build it. If unaddressed, the lack 
of balance poses a significant risk to the all-volunteer force 
and degrades the Army's ability to make a timely response to 
other contingencies.''
    They know they are on the hook, not only to supply forces 
for Iraq and Afghanistan but for any other contingency that 
might arise and the President might tell them to go to deal 
with a threat. And they are acutely aware of the fact that 
there are many possible challenges out there, and we do not 
have an adequate reserve of ready and available ground forces. 
And I think that makes them, as force suppliers, deeply 
uncomfortable and deeply aware of the strategic risk that we 
are accepting at the moment.
    So I think they are very interested in seeing a rebalancing 
of demand and supply. I think here supporting growth is very, 
very important to bringing that back into balance. But that is 
going to take time. In the nearer term, the only way you are 
going to get closer to that balance is by moderating demand.
    Mr. Ortiz. I know we have been gone, so let me just yield 
to my good friend, Mr. Forbes, for a question that he might 
have.
    Mr. Forbes. Mr. Chairman, thank you, and I have got a 
number of questions if this is the appropriate time to go ahead 
and ask some of those.
    And I want to begin by stating what we all know up here but 
make sure that everybody knows it, if there is anybody who is 
neutral out there, and that is that some of my dearest friends 
are sitting on this subcommittee, and I have just absolute 
respect for the chairman and for Neil Abercrombie and 
Madeleine, who was handling this and who has left now, and, of 
course, Mr. Saxton and Mr. Jones and Mr. Wilson, who is coming 
in.
    Oh, I am sorry, Madeleine, I didn't see you sitting back 
there.
    And I also have incredible respect for our witnesses.
    But I have stated this before, and I continue to believe 
it, every time I see you guys, it reminds of the end of the 
Casablanca movie where we say, ``Okay, round up the usual 
suspects.'' We have heard this testimony over and over and over 
again, you know? And one of the big concerns I had today was, 
if we are really serious about talking about readiness, we 
don't need an interpretation from our witnesses as to what our 
men and women say; we need them here. Let you say whatever you 
want and put them behind you and let them answer, and we 
requested that, but we were denied that ability to have them 
come in here and answer these readiness questions.
    And the concern that I have today is what Mr. Saxton has 
raised. There is an article in the paper that talks about the 
fact that over and over again now what we are doing is taking 
matters that would normally be on the suspension calendar, 
running them through the Rules Committee and then bringing them 
up on the floor so we can have a vote to look like we have 
something to do.
    We don't need to have a discussion about having a 
discussion on readiness. Mr. Saxton said, we need today to pass 
the supplemental and to get that passed. And my dear friend, 
the chairman, rightly so, we have passed the supplemental out, 
but as my other dear friend, Neil Abercrombie said, as a lot of 
people in this body don't understand the need for readiness, 
what we really need to be doing, if we could really focus on 
our readiness concerns, is we need to pass a resolution that 
says, we want that supplemental coming back without loading it 
up with all these pork barrel projects and with any other kind 
of political agendas on it, because that will do more to help 
our readiness than any discussion we are going to have here 
today.
    Now, Ms. Flournoy, I want to just ask you a question, 
because I listened to your testimony, read your testimony, 
listened to Mr. Korb's, read his--Mr. Donnelly, I apologize, I 
didn't get to hear yours, but I read yours--and, Ms. Flournoy, 
you talked about 43 percent, I think, of the equipment 
available to the Guard for their equipment utilization. Is that 
an accurate statement in your testimony? Am I misinterpreting 
what you said?
    Ms. Flournoy. This is from the Commission on the Guard and 
Reserve, that the Army National Guard currently lacks 43.5 
percent of its authorized equipment.
    Mr. Forbes. Okay. Can I stop you right there?
    Ms. Flournoy. Yes.
    Mr. Forbes. Can I ask you this question: Is that an 
accurate figure today?
    Ms. Flournoy. It may have changed in recent weeks.
    Mr. Forbes. You don't know, do you?
    Ms. Flournoy. I don't know since the report has come out.
    Mr. Forbes. All right. And now let me ask you this: Do you 
know the date that that number was effective for in that 
report? I have got a copy of the report here. What date was 
that date effective for?
    Ms. Flournoy. I know it was within the last year, but I 
don't know if it has changed substantially.
    Mr. Forbes. Would it have been February of 2007?
    Ms. Flournoy. Pardon me?
    Mr. Forbes. Would it have been February of 2007?
    Ms. Flournoy. Like I said, I don't have a specific date.
    Mr. Forbes. So your testimony today is that the figure that 
you are testifying to, you got out of a report, a report that 
you don't know when the effective date was based on----
    Ms. Flournoy. Sir, I can tell you that I actually had my 
testimony reviewed by people for accuracy, not for judgment or 
opinion but for accuracy, within the Army staff, and they said 
that is still in the ballpark. There was not a meaningful 
change.
    Mr. Forbes. Ms. Flournoy----
    Mr. Ortiz. Why don't we just go ahead and let her answer 
your question?
    Mr. Forbes. No, please, I want you to.
    Ms. Flournoy. No, that was my answer, that there may be 
some change but not a significant change.
    Mr. Forbes. And in all due respect, these are the figures 
that have been given to us by the Army Chief of Staff in March 
of 2008 to this committee.
    Ms. Flournoy. Okay.
    Mr. Forbes. They are enormously different.
    Ms. Flournoy. Great. That is a very good news story.
    Mr. Forbes. They have figures of 79 percent and 66 percent. 
Now, the Army chief of staff, I would imagine, would have a 
greater degree of accuracy, perhaps, than some of the people 
you had look it over. And my point is not to discredit you, it 
is to simply say, between that time period and today, we 
authorized $20 billion in the 2007 budget that is beginning to 
be implemented in here, and I think you would agree with me, if 
the Army Chief of Staff is not giving us false information, 
that 79 percent and 66 percent, the two figures that they gave, 
is a whole lot different than 43.5 percent and 33.5 percent.
    Ms. Flournoy. I have not been given access to that 
information. I gave you the best information that I had.
    Mr. Forbes. And, Ms. Flournoy----
    Ms. Flournoy. So I am glad to hear it is a better story. 
That would make me very happy.
    Mr. Forbes. And my point is, if we had had them in here 
testifying, as we requested, they would have at least been able 
to give us that accurate picture.
    Ms. Flournoy. I think General Cody was here.
    Mr. Forbes. The other question I would ask is this, how 
many members of the Navy do we have currently in ground force 
supplemental capacities today, as you and I are listening and 
looking at our overall readiness capacity, do you know?
    Ms. Flournoy. Sir, I know that there are a number of not 
only Navy personnel but also Air Force personnel, but I do not 
have the exact figure in my head.
    Mr. Forbes. Mr. Korb.
    Mr. Korb. I do know that they call them ILOs, in lieu of, 
over there, and the number probably--and it changes, obviously, 
all of the time. And when we try and get those numbers, we are 
told they are classified. As I pointed out in my testimony 
here, when we tried to get information on active duty units, 
Guard units, they wouldn't give them to us.
    Mr. Forbes. Mr. Korb, first of all, let me just say, I 
wasn't with you when you asked, but, again, it comes back to 
what we had requested. If we had them here testifying, they 
have to tell us the information or they can tell us it is 
classified. Just as of yesterday, they told me it was 14,671 
that you don't even know that they have, and that is a huge 
impact on readiness.
    Now, let me ask you this question: If you look at those 
individuals, what was the largest, most expensive, most 
powerful platform the Navy had for readiness capability in 
their arsenal of tricks? What would you say it would be? The 
largest platform the Navy has.
    Mr. Korb. Probably an aircraft carrier.
    Mr. Forbes. Aircraft carrier. On September the 11th of 
2001, how many did we have that were deployable?
    Ms. Flournoy. I believe it was 11.
    Mr. Forbes. Eleven deployable?
    Mr. Korb?
    Mr. Korb. Well, when you say fully ready to be deployed?
    Mr. Forbes. Absolutely. That is the word, ``deployable,'' 
ready to be deployed.
    Mr. Korb. Okay. I mean, the Navy--and I remember my own 
days as a naval flight officer where you would basically be 
deployed for six months, you would come back for six months to 
get yourself ready, so I would say two-thirds were fully 
deployable.
    Mr. Forbes. How many would that be?
    Ms. Flournoy. With the possibility of surges.
    Mr. Korb. At that particular time, I would say, probably 
eight.
    Mr. Forbes. Okay. You would say 8, you said 11. The actual 
answer was two. Do you know how many we have deployable today? 
Let me give you the answer, because I don't think if you didn't 
know what it was on September 11, you probably don't know 
today. Today, we have three; in 30 days, we could have six; in 
90 days, we could have seven. That is a huge readiness benefit 
that we have, because we don't have to ask permission where we 
land our planes, we have got those carriers ready. And I would 
think that would be a discussion that we would want to have and 
that you would want to know if we were talking about readiness.
    Now, the other thing I want to just raise up, and Brian, if 
you could throw me that first chart, because this is Ms. 
Flournoy's testimony, and it was good testimony, but she 
basically made a statement that I think was very accurate, and 
she said, when you talk about the sky is falling stuff, if we 
take a step back, because that is what the American people are 
really looking at, one of the things that she said that she 
experienced when she looked at our force was that we had the 
most experienced, the most adaptive, the most professional and 
the most capable force this country has ever fielded.
    And I asked her if that meant more than last year. Last 
year, the figures that she had on the Guard were from February 
of last year. ``More than last year,'' she said, ``Yes.'' I 
said, ``More than the year before that?'' ``Yes.'' And we went 
all the way back to 2000.
    Now, since that time, I have asked that same question of 
Secretary Geren. You know what he said? He agreed with you, the 
most experienced, adaptive, professional and capable force this 
country has ever fielded, more than in 2000, more than 2001, 
2002, 2003, you can do the rest of the math. I asked General 
Casey, same quote, he agreed; Admiral Fallon, who at that time 
was commander, U.S. Central Command (CENTCOM), he agreed; 
General David Petraeus, he agreed; Admiral Eric Olson, he 
agreed; Admiral Timothy Keating, he agreed.
    Mr. Korb, a while ago, said if we got the supplemental, it 
wouldn't fix all the problems. We have never fixed all the 
problems. In fact, in 2000, we had a picture of $56 billion of 
holes in the yard. Our testimony from all of our men and women 
in uniform, who know the figures, said that as of next year, it 
would be $17 billion.
    Brian, if you would give me the next chart. This is what 
Mr. Saxton was just pointing out. Instead of saying we want to 
educate all the Members of Congress about the need for 
readiness, instead of having debates on whether we are going to 
have additional debates, if we pass this supplemental right 
now, if we focused our energy and our time and said, ``Let's 
have a resolution that passes that,'' this would do more to 
grow the force, which would deal with the problems you are 
talking about, because we are talking about 36,000 additional 
end strength needs that we begin the process of meeting with 
that supplemental that is tied up today. But we are not talking 
about that.
    We can't be content to just say we can wash our hands 
because we passed it. We have got to say, we need to get this 
money to our troops, because they need it.
    And the last one. And that is why Mr. Saxton and I today 
put in a resolution that, in all due respect, with all of our 
friendships to everybody, is the resolution we should be 
debating today, and we should have military folks here to at 
least have a supplement with accurate facts of our readiness 
that says this, that Congress should immediately act to pass 
the supplemental without additional strings attached to it.
    That resolution, Mr. Saxton and I are filing today, that is 
the resolution, I would submit, we need to be talking about if 
we are really serious about moving forward with readiness.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Korb. Mr. Chairman, can I make a comment?
    Mr. Ortiz. Sure, go ahead, Mr. Korb.
    Mr. Korb. I used to be in charge of readiness in the Reagan 
administration, and I think you have to be very careful when 
you use the term, ``readiness,'' because you go C1, C2, C3, C4. 
And so when you say ready, are you talking C1 or C2 or C3? And 
those numbers are classified. So when you ask a question, like 
to Michele and myself, on this date how many were ready, were 
you saying, C1, C2, C3, okay? And I think that is important.
    Now, let me give you another example from my own 
experience, okay? When I was a naval flight officer, I had the 
duty one day, we got a call from the seventh fleet, and they 
said, ``How many of your planes are ready?'' So I read the 
chart, the C1s. My commanding officer almost had me court 
marshaled. He said, ``When the seventh fleet calls, all of our 
planes are ready.''
    In the readiness thing, there is also a commander's 
evaluation, so those are not objective, because I used to go 
over those things. Basically, you have a commander's evaluation 
that the commander decides whether he or she is going to put 
things in there.
    So when you talk about this, I think you have to make it 
very clear exactly what you are talking about when you talk 
about ready.
    Mr. Forbes. Mr. Chairman, if I could respond, since Mr. 
Korb responded with a new question. I never asked you about 
whether they were ready, I asked if they were deployable. And 
the second thing is, I would not only agree with your comment 
about readiness, because readiness is a big picture, and you 
can't go in and look at one single category, I agree with that, 
but the other thing I would suggest to you is we have changed 
those definitions of readiness, haven't we, since we moved from 
a strategic Reserve to an operational Reserve. Would you agree 
with me on that?
    Mr. Korb. For the Guard?
    Mr. Forbes. Yes.
    Mr. Korb. Again, those numbers are classified, okay, in 
terms of--now, what you do----
    Mr. Forbes. I understand, but going from a strategic 
Reserve to an operational Reserve----
    Mr. Korb. I understand, but what you do is you have 
criteria. The personnel, do you have the number of personnel, 
do you have the equipment, and do you have the training, okay? 
And, basically, when you say deployable, again, it is a misuse 
of words, because deployable is up to the commanding officer of 
that unit, and if the commanding officer decides that that unit 
is deployable, it can deploy. And a commanding officer 
sometimes--and, again, he or she has to look at that 
information. So I think we are mixing apples and oranges here, 
because they have to sign off on it.
    I can tell you this: We sent the brigade of the 3rd 
Infantry Division to Iraq in December of 2006 as part of the 
surge. There were 43 people in that unit who were assigned that 
missed the unit training, and they were sent over there, but 
that unit was certified as ready. If I were the commanding 
officer of that, I would not have certified it as ready.
    Mr. Ortiz. Let me say something----
    Mr. Abercrombie. Mr. Chairman, just for point of 
clarification, so that we stay on track here, prior to 
September 11, the Navy operated an entirely different 
deployment cycle.
    Mr. Donnelly, you are shaking your head, maybe you would 
like to comment on it. I don't want to start, in a sense, 
arguments about this, but if the argument is going to be that 
the readiness resolution in front of us is deficient, at least 
we ought to have our--we ought to be comparing apples to apples 
is what I am driving at.
    Now, what I mean by that, and not so much in response to 
Mr. Forbes, but to make sure that we are on the same page, 
apples to apples, you had a different deployment cycle. You had 
a 2-year cycle and 18-month preparation. Then it has changed 
now to exactly what Mr. Forbes says it is, which is the three 
carriers in 30 days, but that wasn't because the three carriers 
in 30 days is now what it should have been prior to September 
11 and wasn't, it was an entirely different basis of deployment 
specifications prior to September 11. I believe that is 
accurate.
    You seem to be knowledgeable, Mr. Donnelly. Am I stating it 
correctly? I think I am.
    Mr. Donnelly. Mr. Abercrombie, I would agree with you, and 
as I said in my opening statement, the Army has, likewise, 
changed its force generation model. So comparing apples to 
apples through the years is much more difficult than it used to 
be.
    Ultimately, I would say this is an intimately regressive 
chase that isn't very helpful, and I would say also that there 
has always been commanders' discretion in certifying units to 
be ready, so we ought to deal with the statistics as they 
present themselves. That is not an opinion as to whether there 
should have been DOD witnesses here or not.
    Mr. Abercrombie. I appreciate that. I don't want to take 
further time on it. I just want to make sure that we don't 
operate across purposes.
    Mr. Ortiz. Let me just say something: You know, if you read 
the resolution, our main concern is ground forces, Marines and 
Army. I know that when you talk about the full spectrum, it 
includes a lot of other things, but we are talking today about 
ground forces.
    And talking about testimony, the most recent testimony that 
we had was last week, General Cody and General Magnus. This is 
what General Cody said. He said, ``We have got the best 
soldiers, the best equipment, but we are also unprepared for 
the full spectrum.'' He goes on to say, ``to fight and lack the 
strategic depth that has been our traditional fallback for the 
uncertainties of this world.''
    See, the factor out there is the unknown factor. Now, you 
hear candidates say that we might be there 30 days and get them 
out. You hear other candidates say we might be there 100 years. 
Well, do we know when this war is going to end? Does anybody 
know? Can anybody tell me when it is going to end? We don't 
know. It is the uncertainty factor that is out there.
    And all we are trying to do is to get into it from the 
witnesses today, from members on both sides of the aisle, 
because we know that we have a problem.
    You know, look at the preposition to stop them. And I don't 
want to go into a lot of secret briefings that we have had. 
This is not the place to do that. All I am saying is that we 
have horrendous problems. I mean, we are having to pay big, 
big, big-time bonuses for our soldiers who stay there. You 
know, it is a strain on the families. The recruiters are having 
problems. They have to reduce some of the criteria that we had 
before. Young officers are leaving the military, they are 
getting out. And you remember sometime back that they were 
getting to the theater without proper training, they were 
getting the equipment in Kuwait before they went to Iraq.
    There are a lot of problems, but the thing is this: We are 
not here to point fingers at anybody. We want to fix this 
problem, because we know that we have a serious problem.
    Today, Mr. Abercrombie and I are focusing on the problem of 
the ground troops.
    Now, let me yield--I think that my good friend, Mr. 
Abercrombie----
    Mr. Wilson. Mr. Chairman? Mr. Chairman?
    Mr. Ortiz. Sure.
    Mr. Wilson. I would like to move unanimous consent to be 
listed as a co-sponsor of the Forbes-Saxton resolution.
    Mr. Ortiz. Hearing no objection, so ordered.
    I guess the next gentleman in line is Mr. Abercrombie for 
questions.
    Mr. Abercrombie. Thank you.
    I am not quite sure why we are at the stage where we are 
having an argument about readiness, per se. The question is 
more, I think, and part of the motivation for the resolution 
that is in front of us today, is to try to get information out 
and perspective on it, particularly as a result of this 
supplemental question.
    It is easy to say that one should have a clean 
supplemental, but, by definition, if it is an emergency 
supplemental bill, it is going to take whatever comes along. 
You can't change the rules of the Congress. And what 
constitutes something clean, I am not quite sure.
    We just passed a resolution over on the floor while we were 
away that says we can't do any business with any country that 
does business with Iran. Iraq does business with Iran, so, 
presumably, we are not going to do any business with them. So 
the overall level of--another context might be frivolousness, 
although something so serious as this, to be taking that kind 
of an attitude, seems to me, at best, dysfunctional, at worst, 
it is a mockery of the troops serving in the field.
    It leads me back to where I think we should be, which is, 
can we get across the idea that we have a readiness question 
that has to be addressed.
    So I promised you, Mr. Donnelly, that I would pick on you 
as soon as I could, as recompense for walking out on you when 
you were about to talk. I wonder if you could comment--let me 
go directly to your testimony. If you will forgive me, I had it 
right here. I lost my page. Yes.
    You said, as one of your preferences, ``To understand the 
challenge that our land forces now face just look back to the 
years of the Cold War period.'' And then you cited two insights 
which you attributed to Secretary Rumsfeld. One is the state of 
international politics and concluding the early 21st century is 
a period of strategic pause, and that said, you then went 
further on, ``and the initial post-9/11 operation, most notably 
the invasion of Afghanistan,'' you were talking about special 
operation forces.
    I wonder if you could comment on do you see a connection 
between readiness, as outlined in the resolution, and the 
capacity to be able to deal effectively militarily now, setting 
aside, if you can, the politics, in Afghanistan and what you 
think that that would entail in order to accomplish readiness, 
as we understand it by Army standards, which is your C-1, 2, 3, 
4?
    It is a pretty big order, but it follows--I appreciate the 
way you put your testimony, because it let us up in a--not a 
theoretical but a doctrinal basis, if you will, to where we 
are. Is that a fair summary of what you were saying?
    Mr. Donnelly. Yes, sir, I think it is. And I think it is 
important for us to focus more than we have done on what the 
actual mission now is in Afghanistan. Unfortunately, too much 
of our debate about Afghanistan pretends as though that is 
actually the central front of the al Qaeda war in terms of 
tracking down the al Qaeda senior leadership.
    In Afghanistan today, there is really actually very little 
al Qaeda presence, and so it is less a counterterror operation 
than it is a classic counterinsurgency operation. And so the 
kinds of forces that are demanded are really kind of at the 
opposite end of the spectrum of those that were so effective 
during the initial invasion.
    Mr. Abercrombie. May I add, parenthetically, while you are 
at it, you understand why I am asking, because we tend to get 
focused on Iraq and we are talking about readiness here, as a 
general proposition for the Army. That is why I value what you 
had to say.
    Mr. Donnelly. I agree, and, unfortunately, so much of the 
mission in Afghanistan that is so critical at the moment or in 
those areas where our North Atlantic Treaty Organizsation 
(NATO) partners have the lead, rather than U.S. forces, 
actually things are going relatively well in the U.S. sector. 
And as everybody is aware, then deployment of the Marine 
expeditionary unit to Kandahar is a response to try to cover 
those areas that aren't getting adequate attention.
    But we shouldn't mislead ourselves about what the nature of 
the mission is. It is not really primarily a counterterrorism 
mission but in broadly similar terms to the mission in Iraq, it 
is another long duration, at least as I understand it, 
counterinsurgency mission that is going to tax the general 
purpose forces, the conventional formations of the U.S. Army. 
And so, again, to echo something that Michele Flournoy said, 
even if force levels in Iraq are reduced for whatever reason in 
the future, my prediction would be that the demand for forces 
in Afghanistan will remain constant, if not grow. But, again, 
it is not an al Qaeda mission, it is a counterinsurgency 
mission.
    Mr. Abercrombie. If I can follow up on that with you then, 
because that is my concern. I have no problem with the 
supplemental, but given what we have done, I have a problem of 
why we are where we are. We shouldn't have done this in the 
first place. Just for purposes of the record, I will state, 
although many of the members of this committee know, I put an 
amendment one time to actually pay for the war in Iraq, and I 
was defeated with the idea that, ``Well, we will take that up 
in the supplemental budget.'' We have been paying for the war 
in the supplemental budget.
    That is why I am opposed to it, and that is why we have got 
the readiness thing here. I don't want to get into an 
argument--I hope I don't--about what the real resolution should 
be or not be. Every resolution is as worthy as what it says. 
The reason this resolution is here is because I am trying to 
get to the question, the fundamentals behind the question of 
supplementary budgets having to make up for what we didn't do. 
And everybody has got a stain on them with that respect. Every 
administration and every Congress has done it, no matter who 
has been in charge.
    What we are trying to do is act in a responsible way here 
to deal with the fundamental readiness questions that transcend 
where we are at the moment that we have to make up for it. I 
will be happy to vote for a supplemental budget that takes 
care--if we want to talk about a clean resolution, then I don't 
want anything in it about paying for the war that we should be 
paying for anyway, but if you put in a resolution that deals 
with the ongoing readiness questions that helps us with reset 
and so on, I will do it. I will sign on in a second.
    But I am not going to keep voting for supplemental budgets 
or supplemental resolutions, or however the hell we 
characterize them, that keep on paying for the same mistakes 
and keep on rewarding people for doing the same thing over and 
over again.
    Now, in that context, you say, my greatest concern is that 
in an attempt to relieve the stresses and strains on the Army 
and Marine Corps, we will attempt to fit the war to the size of 
the force rather than sizing the force to win the war.
    Now, in that context then, and in the context of the answer 
that you just gave, could you comment a little bit further on 
what you think it would take to enable us to continue in 
Afghanistan at this present time without getting lost in the 
weeds of surge policy or whatever the hell else we are talking 
about in Iraq?
    Mr. Donnelly. I will do my best. And based on an exercise 
that we ran fairly recently at the American Enterprise 
Institute (AEI), and based on my understanding of what General 
McNeill's requirement is, and based further on the ways in 
which the North Atlantic Treaty Organization (NATO) command 
needs to be supplemented in Afghanistan, I think the minimum 
requirement for Afghanistan is an additional three American 
brigade combat teams or equivalents, be they Marine RCT, 
regimental combat units, or Army brigades.
    So I think in order to not only sustain the progress in the 
east sector that we have responsibility for, but to make more 
rapid progress in Helmond and Kandahar in the south sector, 
particularly with a view toward securing the elections that are 
supposed to take place in 2009 and 2010, which are crucial for 
progress in Afghanistan, that is, I think, a generally agreed 
estimate of what the minimum requirement is.
    Mr. Abercrombie. Okay. I will conclude because I am afraid 
we got trapped in another vote. I take your points on the 
question of fundamental integrity of the military as a whole 
threatening the broad national security of the United States. I 
did not think that the resolution had that implication. I am 
sorry that you felt you had to use the word, ``egregious,'' 
with it. I assure you that that certainly is not the intent of 
Mr. Ortiz or myself to do anything which is egregious in this 
context. It is too a serious a matter. But if that is an 
interpretation that could reasonably be drawn, we will take 
another look at it and try to remove that, I can assure you.
    Mr. Donnelly. As a former staffer, I would appreciate your 
willingness to consider diverse judgment. It was not an 
assessment of the intent of the resolution, but I think it is 
an inaccurate description of the state of the force.
    Mr. Abercrombie. Okay. Then we will take that into account, 
because the kind of recommendations that you are making right 
there is what we are trying to get at. That is the idea behind 
the resolution.
    Thank you, Mr. Chairman.
    Mr. Ortiz. We have another couple of votes, but before we 
do, let me yield to Mr. Saxton for----
    Voice. Are we coming back, Mr. Chairman?
    Mr. Ortiz. Well, I was going to ask the witnesses. I know 
that we have really belabored you this afternoon, and I don't 
know how much time you have.
    Mr. Abercrombie. I would like to come back if you folks 
could stay.
    Mr. Ortiz. Yes. If you are going to be here, we will take 
about 10 minutes.
    Mr. Saxton. Well, there is actually a motion to recommit 
pending, I believe, so we will be out for a vote and then a 10-
minute debate and then another vote. That is the way I 
understand it, anyway. So it is going to be more like half 
hour, 45 minutes.
    Mr. Ortiz. It will take another 30 minutes.
    Mr. Abercrombie. That long?
    Mr. Ortiz. Yes, because he says we have a motion to 
recommit, 10 minutes of debate and then passage. Is that what 
it is?
    Mr. Abercrombie. Well, no. We wouldn't be voting on--the 
debate would have already occurred. What are we voting on?
    Mr. Saxton. So we are out of here.
    Mr. Chairman, I just wanted to make a suggestion. I have 
studied your resolution in detail, and, frankly, I agree with a 
lot of the provisions that are in it. And readiness is an 
issue; however, there is a path to recovery, as pointed out by 
General Vaughn and General Stultz and General Cody and General 
Magnus, all four. And Mr. Forbes and I have introduced a 
resolution which is similar in nature except that the resolve 
provision provides for a path forward that is the path that is 
recommended by the military leaders that this committee has 
invited here for advice.
    And so my suggestion is that we take your resolution and 
try to identify those areas where we can agree in the whereas 
provisions and then try to rework a resolve provision that 
would provide for encouragement for the House to go ahead and 
pass the supplemental, which most people who have studied this 
issue believe is a path forward to solve the problem that we 
both agree needs to be solved.
    So that is just a suggestion.
    Mr. Ortiz. Well, just give us time, because we haven't had 
a chance on this side to look at your resolution.
    Mr. Saxton. Yes. Well, our resolution is not written in 
stone. The provisions move in a direction that I think is 
positive, and I think you are correct in pointing out the 
problems that you see as existing with regard to readiness.
    So why don't we get together, put the provisions that we 
can all agree on together in a single resolution and see if we 
can't get it passed?
    Mr. Ortiz. Well, let's give your copy, whatever you have, 
to the staff, and now I know we are running out of time before 
we get to the vote. But there are a lot of things that we need 
to talk about readiness. All the focus has been on equipment, 
manpower going to Iraq and Afghanistan, and I feel that 
sometimes I fear--this is personally--that we are forgetting 
that the focus should be on how to defend the homeland. And I 
don't think we are putting enough focus there.
    But I am going to recess this hearing now.
    Voice. Are we going to have a panel?
    Mr. Ortiz. I don't know about the witnesses. How much time 
do you have?
    Mr. Donnelly. Mr. Chairman, it is a pleasure, absolutely.
    Mr. Abercrombie. Mr. Chairman, I will tell you, why don't 
we--I am sure the witnesses will be available to us 
individually. I think it is going to be at least half an hour 
before we are able to get back, given what is--I, for one, 
think that we have used their time long enough, and I am sure 
any of you would be available to us individually for 
consulting, would you not?
    Mr. Ortiz. We are getting more information. It might take 
45 minutes or longer to get back.
    But thank you so much. I think that this has been an eye 
opener for all of us. And we need to learn from one another, 
because we want to do what is best for our country, for our 
troops, our families, and we thank you for joining us today.
    And this hearing stands adjourned. Thank you.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 16, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 16, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3786.001
    
    [GRAPHIC] [TIFF OMITTED] T3786.002
    
    [GRAPHIC] [TIFF OMITTED] T3786.003
    
    [GRAPHIC] [TIFF OMITTED] T3786.004
    
    [GRAPHIC] [TIFF OMITTED] T3786.005
    
    [GRAPHIC] [TIFF OMITTED] T3786.006
    
    [GRAPHIC] [TIFF OMITTED] T3786.007
    
    [GRAPHIC] [TIFF OMITTED] T3786.008
    
    [GRAPHIC] [TIFF OMITTED] T3786.009
    
    [GRAPHIC] [TIFF OMITTED] T3786.010
    
    [GRAPHIC] [TIFF OMITTED] T3786.011
    
    [GRAPHIC] [TIFF OMITTED] T3786.012
    
    [GRAPHIC] [TIFF OMITTED] T3786.013
    
    [GRAPHIC] [TIFF OMITTED] T3786.014
    
    [GRAPHIC] [TIFF OMITTED] T3786.015
    
    [GRAPHIC] [TIFF OMITTED] T3786.016
    
    [GRAPHIC] [TIFF OMITTED] T3786.017
    
    [GRAPHIC] [TIFF OMITTED] T3786.018
    
    [GRAPHIC] [TIFF OMITTED] T3786.019
    
    [GRAPHIC] [TIFF OMITTED] T3786.020
    
    [GRAPHIC] [TIFF OMITTED] T3786.021
    
    [GRAPHIC] [TIFF OMITTED] T3786.022
    
    [GRAPHIC] [TIFF OMITTED] T3786.023
    
    [GRAPHIC] [TIFF OMITTED] T3786.024
    
    [GRAPHIC] [TIFF OMITTED] T3786.025
    
    [GRAPHIC] [TIFF OMITTED] T3786.026
    
    [GRAPHIC] [TIFF OMITTED] T3786.027
    
    [GRAPHIC] [TIFF OMITTED] T3786.028
    
    [GRAPHIC] [TIFF OMITTED] T3786.029
    
    [GRAPHIC] [TIFF OMITTED] T3786.030
    
    [GRAPHIC] [TIFF OMITTED] T3786.031
    
    [GRAPHIC] [TIFF OMITTED] T3786.032
    
    [GRAPHIC] [TIFF OMITTED] T3786.033
    
    [GRAPHIC] [TIFF OMITTED] T3786.034
    
    [GRAPHIC] [TIFF OMITTED] T3786.035
    
    [GRAPHIC] [TIFF OMITTED] T3786.036
    
    [GRAPHIC] [TIFF OMITTED] T3786.037
    
    [GRAPHIC] [TIFF OMITTED] T3786.038
    
    [GRAPHIC] [TIFF OMITTED] T3786.039
    
    [GRAPHIC] [TIFF OMITTED] T3786.040
    
    [GRAPHIC] [TIFF OMITTED] T3786.041
    
    [GRAPHIC] [TIFF OMITTED] T3786.042
    
    [GRAPHIC] [TIFF OMITTED] T3786.043
    
    [GRAPHIC] [TIFF OMITTED] T3786.044
    
    [GRAPHIC] [TIFF OMITTED] T3786.045
    
    [GRAPHIC] [TIFF OMITTED] T3786.046
    
    [GRAPHIC] [TIFF OMITTED] T3786.047
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 16, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T3786.048
    
    [GRAPHIC] [TIFF OMITTED] T3786.049
    
    [GRAPHIC] [TIFF OMITTED] T3786.050
    
    [GRAPHIC] [TIFF OMITTED] T3786.051
    
    [GRAPHIC] [TIFF OMITTED] T3786.052
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 16, 2008

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. During the hearing, Representative Forbes referred to 
your prior testimony on February 14 regarding the strengths of the U.S. 
military--namely, that the force is adaptable, experienced, and 
professional. Please elaborate for the record how the ground forces, 
while certainly serving our Nation heroically, are nevertheless 
experiencing the types of readiness challenges that you described in 
your testimony for this hearing.
    Ms. Flournoy. As you point out in your first question, I have 
testified previously regarding the impressive performance of the Army 
and Marine Corps in current military operations despite serious 
stresses to personnel and equipment. While I believe that the current 
generation of America's soldiers and Marines is remarkably adaptable 
and experienced, I also believe that we are fast approaching the 
physical limits of what the Army and Marine Corps can sustain. Even the 
world's best military can be pushed beyond the limits of what it was 
designed to support. Ceaseless high-tempo operations will constrain 
training time, wear down equipment, and exhaust personnel and their 
families no matter their quality. To ignore or deny the evident strains 
on the ground forces puts both the force and the Nation at risk. I 
therefore urge the Committee, as I did in my testimony, to do 
everything in its power to reestablish a ready reserve of ground 
forces, fund reset and expansion, and support a rebalancing of the 
force to deepen capacity in higher-demand capability areas. Doing so 
will help our forces to build on the experience they have gained while 
also restoring readiness.
    Mr. Ortiz. Please describe for the committee the scale of 
investment rebuilding readiness will require. Will we be able to 
address our readiness concerns with one supplemental, or will recovery 
be a longer-term challenge?
    Ms. Flournoy. In answer to your second question, rebuilding ground 
force readiness will not be a simple or short-term endeavor. Addressing 
today's readiness shortfalls involves both recovering from the Nation's 
two ongoing wars and readjusting to the range of likely future 
contingencies. Resetting and modernizing equipment, in addition to 
expanding the force and training for full-spectrum operations, will 
require at least a decade of continuous, robust investment. For 
example, the Government Accountability Office estimated this past April 
that the costs for Army equipment reset alone could reach $118 billion. 
Meanwhile, the Marine Corps estimated in its 2008 posture statement 
that it needs almost $5 billion more to repair and replace equipment 
from the wars in Iraq and Afghanistan. Such investment must be made 
with long-term budgetary management in mind and should, over time, be 
migrated to the base defense budget from short-term supplemental 
funding packages.
    Finally, I would like to take this opportunity to update one of the 
statements I made during my testimony. In my written and oral remarks, 
I referred to equipment data taken from the Final Report of the 
Commission on the National Guard and Reserves. I have since received an 
updated briefing from the Army, and would like to share the information 
provided to me with the Committee. Specifically, updated Army data now 
shows that the Army National Guard (ARNG) had 79 percent of its 
required equipment at the end of fiscal year 2007, and that 13 percent 
of that equipment was deployed with units, leaving 66 percent of ARNG 
equipment available to State Governors.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. Last week, General Cody appeared before this 
Committee and stated that the army is ``out of balance'', that we are 
``unprepared for the full-spectrum fight and lack the strategic depth 
that has been our traditional fallback for the uncertainties of this 
world.''
    In Iowa, we have seen how our National Guard has born much of the 
brunt of the current readiness strain of our ground forces, leaving our 
Nation's first line of defense against emergencies--of any nature--
depleted, and our homeland less secure.
    To date, the Iowa National Guard has mobilized 10,000 Soldiers and 
Airmen in support of operation in Iraq and Afghanistan. Every Iowan is 
deeply proud of the service and dedication of our National Guard men 
and women.
    However, as the Adjutant General of the Iowa National Guard Major 
General Ron Dardis, has stated, the Iowa Guard and their families are 
``stressed and strained.''
    When the 224<SUP>th</SUP> Engineer Battalion, which is based in my 
District, was deployed to Iraq it was at 100% equipment readiness. When 
it redeployed, it was forced to leave most of its equipment in theater, 
leaving it with 30% of its required equipment.
    When the 833<SUP>rd</SUP> Engineer Company, also based in my 
District, was recalled to Iraq after only 14 MONTHS at home, they had 
no equipment on which to train.
    To say that this training, equipment, and readiness situation is 
alarming is a gross understatement. Iowa leans heavily on its National 
Guard for emergency response. Guard units operating with 30% of their 
equipment and with only 14 months of dwell time are simply not in a 
position to respond to an emergency at home--or be called up as an 
operational force to respond to threats facing our Nation abroad.

      1.   Last week General Cody told me that, even once the Grow the 
Force Initiative is complete, our ground forces will be operating at a 
1:2 dwell time ratio while the size and pace of our current deployments 
continue. DOD's deployment policy currently requires Reserve components 
to meet a 1 in 5 deployment ratio. This was clearly not the case for 
the 833<SUP>rd</SUP> Engineer Company nor for the many units across the 
country that are experiencing 1 to 1 deployment ratios.

            a.   Can you please outline for me what, in your belief, 
        must be achieved in dwell time ratios in order to assure that 
        our ground forces--both active duty and reserve--are properly 
        trained, equipped, and rested?

            b.   What are the strategic risks associated with 
        continuing deployments at the current rate? What are the risks 
        to our servicemembers and their families?

            c.   According to Admiral Mullen, ``the most likely near 
        term attack on the United States will come from al Qaeda'' via 
        the safe havens in the under-governed regions of Pakistan. How 
        would current commitments and readinesss levels affect the 
        timeliness and effectiveness of our response to an unforeseen 
        contingency along the Afghanistan-Pakistan border or elsewhere?

    Thank you. I believe that it is imperative that Congress 
acknowledge and address the declining readiness of the ground forces in 
the interest of our security at home and abroad. I strongly believe 
that we must commit to restoring the readiness of the military, 
particularly the ground forces, in order to mitigate the strategic risk 
of our current readiness shortfalls.
    Ms. Flournoy. Secretary of Defense Gates' recent efforts to improve 
deployment-to-dwell ratios are commendable precisely because, as you 
point out, such compressed dwell times limit training time and increase 
our level of strategic risk. When the ground forces do not have 
adequate time to train for the full array of possible missions, the 
force as a whole becomes imbalanced, increasing the risk that it will 
not be prepared for future contingencies that may differ from today's 
operational challenges. As my colleague, Alice Hunt, and I write in a 
forthcoming piece on the state of the U.S. military, ``readiness means 
more than having forces ready to deploy to ongoing operations. The U.S. 
military must also maintain its readiness for possible contingencies 
such as a conflict in the Middle East, with North Korea or China . . .  
Maintaining the readiness of the U.S. military writ large is a 
balancing act between the demands of ongoing operations and the 
possible requirements of other missions that may arise. As force 
providers to the combatant commanders, and to support deterrence 
globally, the services must ensure that their forces train and equip 
for a broad array of potential missions--something the Army calls 
`readiness for the full-spectrum of operations'' '
    One such contingency, as you point out, could arise in the 
Afghanistan-Pakistan border region. The complexity of operations in 
Afghanistan, the evolving nature of the relationship between al Qaeda 
and the Taliban, and the precarious political situation in Pakistan 
make possible contingencies--and the plausible American responses--very 
difficult to predict. However, many analysts have noted that the strain 
on our ground forces has precluded a more robust commitment to the 
conflict in Afghanistan, and a timely and effective response to any 
wider events in the region could be hampered by the ongoing force 
demands in Iraq. Beyond possible events in the Afghanistan area of 
operations, I am personally concerned that the Army has only one fully 
ready brigade in the United States that could respond immediately to 
other contingencies.
    Compressed dwell time and repeated deployments also increase the 
risk to the all-volunteer military. As you also point out, shortened 
dwell time at home has adverse effects on service members and their 
families. Studies have shown that repeated tours in Iraq increase a 
soldier's likelihood of developing mental distress, including post-
traumatic stress disorder. One study conducted by the RAND Corporation, 
for example, showed that approximately 14% of Iraq and Afghanistan 
veterans reported symptoms of PTSD. Even for those who do not 
experience these very real wounds of war, 15-month deployments often 
mean that soldiers spend two cycles of holidays away from loved ones; 
children have multiple birthdays without their parents, and spouses 
juggle the challenges of family and finances on their own for an 
extended period of time. I personally have spoken to several soldiers 
who decided to retire from the force simply because their families 
cannot continue to withstand the stress of these back-to-back 
deployments.
    I therefore applaud the President's recent decision to return the 
Army to a 12-month deployment cycle, but I believe the Nation must act 
as quickly as possible to bring the active Army back to a 1:22 
deployment-to-dwell time ratio in order to allow soldiers more time 
with their families and more time to train to the full spectrum of 
operations. But even this is not sustainable indefinitely. The Army 
must continue to move toward a 1:3 ratio once operational demands are 
reduced and the expansion is completed in order to realize robust and 
sustainable readiness conditions for the ground forces.
    Mr. Loebsack. Last week, General Cody appeared before this 
Committee and stated that the army is ``out of balance'', that we are 
``unprepared for the full-spectrum fight and lack the strategic depth 
that has been our traditional fallback for the uncertainties of this 
world.''
    In Iowa, we have seen how our National Guard has born much of the 
brunt of the current readiness strain of our ground forces, leaving our 
Nation's first line of defense against emergencies--of any nature--
depleted, and our homeland less secure.
    To date, the Iowa National Guard has mobilized 10,000 Soldiers and 
Airmen in support of operation in Iraq and Afghanistan. Every Iowan is 
deeply proud of the service and dedication of our National Guard men 
and women.
    However, as the Adjutant General of the Iowa National Guard Major 
General Ron Dardis, has stated, the Iowa Guard and their families are 
``stressed and strained.''
    When the 224<SUP>th</SUP> Engineer Battalion, which is based in my 
District, was deployed to Iraq it was at 100% equipment readiness. When 
it redeployed, it was forced to leave most of its equipment in theater, 
leaving it with 30% of its required equipment.
    When the 833<SUP>rd</SUP> Engineer company, also based in my 
District, was recalled to Iraq after only 14 MONTHS at home, they had 
no equipment on which to train.
    To say that this training, equipment, and readiness situation is 
alarming is a gross understatement. Iowa leans heavily on its National 
Guard for emergency response. Guard units operating with 30% of their 
equipment and with only 14 months of dwell time are simply not in a 
position to respond to an emergency at home--or be called up as an 
operational force to responds to threats facing our Nation abroad.

      1.   Last week General Cody told me that, even once the Grow the 
Force Initiative is complete, our ground forces will be operating at a 
1:2 dwell time ratio while the size and pace of our current deployments 
continue. DOD's deployment policy currently requires Reserve components 
to meet a 1 in 5 deployment ratio. This was clearly not the case for 
the 833<SUP>rd</SUP> Engineer Company nor for the many units across the 
country that are experiencing 1 to 1 deployment ratios.

            a.   Can you please outline for me what, in your belief, 
        must be achieved in dwell time rations in order to assure that 
        our ground forces--both active duty and reserve--are properly 
        trained, equipped, and rested?

            b.   What are the strategic risks associated with 
        continuing deployments at the current rate? What are the risks 
        to our servicemembers and their families?

            c.   According to Admiral Mullen, ``the most likely near 
        term attack on the United States will come from al Qaeda'' via 
        the safe havens in the under-governed regions of Pakistan. How 
        would current commitments and readinesss levels affect the 
        timeliness and effectiveness of our response to an unforeseen 
        contingency along the Afghanistan-Pakistan border or elsewhere?

    Thank you. I believe that it is imperative that Congress 
acknowledge and address the declining readiness of the ground forces in 
the interest of our security at home and abroad. I strongly believe 
that we must commit to restoring the readiness of the military, 
particularly the ground forces, in order to mitigate the strategic risk 
of our current readiness shortfalls.
    Mr. Loebsack. A. Can you please outline for me what, in your 
belief, must be achieved in dwell time ratios in order to assure that 
our ground forces--both active duty and reserve--are properly trained, 
equipped and rested?
    Mr. Korb. Readiness requires that a given unit have an adequate 
number of personnel, the right amount of equipment and that the 
personnel receive appropriate training on tactics they will use in 
carrying out their mission.
    Personnel: Army policy recommends that after serving 12 months in 
theater, active duty troops come home to recuperate and retrain for 24 
months before being returned to the theater. For every 12 months in a 
combat zone, reserve soldiers should spend 60 months at home before 
returning to a war zone.
    Training: Readiness also requires that Army troops be adequately 
trained to perform the duties they will be assigned in theater and 
learn to operate the equipment they will use in combat. The concept of 
``combat readiness'' is subjective and difficult to measure. By its 
very nature readiness is only truly determined once the unit is placed 
into combat. Even the best system to measure readiness can only do so 
through the use of surrogates or substitutes. At present, the Pentagon 
places combat units into five categories of readiness:

    <bullet> C-1: Fully combat-ready.

    <bullet> C-2: Substantially combat-ready, that is, the unit only 
has minor combat-deficiencies.

    <bullet> C-3: Marginally combat-ready, that is, the unit has major 
deficiencies but can still perform its assigned missions.

    <bullet> C-4: Not combat-ready because the unit has so many 
deficiencies that it cannot perform its wartime functions.

    <bullet> C-5: Not combat-ready because the unit is undergoing a 
planned period of overhaul or maintenance.

    Equipment: Finally, readiness requires that troops have a 
sufficient supply of appropriate equipment to carry out their mission 
and that the equipment be in good working order.
    Mr. Loebsack. B. What are the strategic risks associated with 
continuing deployments at the current rate? What are the risks to our 
service members and their families?
    Mr. Korb. Continuing deployments to Iraq at current rates poses 
great strategic risks to overall U.S. national security interests. 
Below are three most pressing strategic risks.
    First, the U.S. incurs a substantial risk to its interests in the 
greater Middle East and to its own security by allowing the security 
situation in Afghanistan, the true central front in the War on Terror 
and the orgin of the 9/11 attacks, to deteriorate. As the U.S. 
intelligence community has pointed out, the failure to consolidate the 
gains made in Afghanistan after the fall of the Taliban has allowed the 
group to reconstitute itself in its safe haven along the Afghan-
Pakistan border region while training and inspiring a new generation of 
Pakistani militants. As long as the U.S. remains so heavily engaged in 
Iraq, it will not be able to send sufficient troops to Afghanistan.
    2007 was the deadliest year for U.S. and coalition forces in 
Afghanistan since the 2001 invasion and 2008 is on pace to be even 
deadlier. Indeed, May 2008 was the most violent month in Afghanistan 
since the 2001 invasion. May saw 214 violent incidents in more than 100 
of the country's 398 districts, up from April's count of 199 violent 
incidents in 86 districts. As a result of the country's declining 
security situation, the government of President Hamid Karzai controls 
less than a third of Afghanistan's territory.
    Second, the continued large-scale deployment of U.S. troops to Iraq 
also plays into the al Qaeda narrative that the U.S. intends to occupy 
Muslim lands and exploit its people for their oil. Consequently, as the 
intelligence community made clear in a 2006 National Intelligence 
Estimate, a large-scale U.S. presence in Iraq remains a ``cause 
celebre'' for the worldwide jihadist movement and will continue to be a 
boon for al Qaeda recruitment. A large U.S. presence in Iraq also plays 
into al Qaeda's stated objective to bog the American military down in 
Iraq and thereby produce economic and strategic exhaustion.
    Third, maintaining an average of 130,000 troops in Iraq over the 
last five years has not only decimated U.S. ground forces, it also has 
compromised our ability to respond to other threats or conflicts around 
the globe. According the Army Vice Chief of Staff Gen. Richard Cody, 
the Army no longer has any fully ready combat brigades on standby 
should a conflict occur.
    General Cody's immediate superior, Army Chief of Staff Gen. George 
W. Casey Jr., told the House Armed Services Committee last fall that, 
``the Army is out of balance.'' That's a polite way of saying it's 
broken. Casey, who is responsible for the Army's overall health, is 
rightfully concerned.
    The chairman of the Joint Chiefs of Staff, Navy Adm. Michael G. 
Mullen, echoed Casey's unease. In January, Mullen told the Marine Corps 
Times that there was reserve capacity in the Navy and Air Force but 
that ground troops were a different story. ``Clearly, if we had to do 
something with our ground forces, a significant substitute would be a 
big challenge,'' he said. Mullen's predecessor, Marine Gen. Peter Pace, 
also expressed his discomfort with our ability to respond to other 
crises. Before leaving his post last October, Pace, stated that the 
troop commitment to Iraq would ``make a large difference in our ability 
to be prepared for unforeseen contingencies'' in the region and 
elsewhere.
    Unfortunately, our service members and their families have paid a 
disproportionally high price for our large scale military presence in 
Iraq. The Pentagon's decision last year to extend tours in Iraq and 
Afghanistan to 15 months from 12 months until the fall of 2008 resulted 
in the longest Army combat tours since World War II. Moreover, dwell 
time--time in-between deployments--has been shortened to 12 months as 
many soldiers are on their second, third, or even fourth tour of duty 
in either theatre. As a result, many soldiers and their families are 
being pushed beyond their physical and mental breaking points.
    The full psychological effect of the war is impossible to estimate, 
as debilitating conditions such as post-traumatic stress disorder and 
clinical depression can take years to appear and last a lifetime. 
Warning signs, however, are already appearing that indicate that large 
numbers of soldiers and Marines returning from the wars in Iraq and 
Afghanistan will face lasting psychological effects. A RAND study 
estimated earlier this year that nearly 20 percent of military service 
members who have returned from Iraq and Afghanistan--300,000 in all--
report symptoms of post traumatic stress disorder or major depression.
    An in-depth review of the problems facing our brave men and women 
in uniform indicates the scope of the challenge ahead.

    Overall Mental Health

    <bullet>   30 to 40: The percentage of Iraq veterans who will face 
a serious psychological wound, including depression, anxiety, or PTSD. 
Multiple tours and inadequate time between deployments increase rates 
of combat stress by 50 percent.

    Post-Traumatic Stress Disorder

    <bullet>   One in five: Number of troops returning from Iraq and 
Afghanistan who show signs and symptoms of post-traumatic stress 
disorder.
    <bullet>   Nearly 20,000: The increase in the number of Iraq and 
Afghanistan war veterans seeking treatment for post-traumatic stress 
disorder from the Department of Veterans Affairs in the 12 months 
ending June 30, 2007, VA records show. This represents a nearly 70 
percent jump since June 30, 2006.
    <bullet>   30 percent: The percentage of troops returning from war 
zones who experience some level of PTSD, according to the Department of 
Veterans Affairs.

    Sustance Abuse

    <bullet>   40,000: The number of Iraq and Afghanistan veterans who 
have been treated at a VA hospital for substance abuse.

    Families

    <bullet>   20 percent: The number of married troops in Iraq who say 
they are planning a divorce.
    <bullet>   42 percent: Number of returning soldiers and Marines who 
said they felt like ``a guest in their own home,'' according to a 2007 
poll. The study also found a link between family problems and PTSD, 
with the two reinforcing each other in a vicious spiral.

    Traumatic Brain Injury

    <bullet>   150,000 to 300,000: The number of veterans who have 
suffered a TBI during the war.
    <bullet>   30 percent: The percentage of soldiers admitted to 
Walter Reed Army Medical Center who have suffered TBI.

    Suicide

    <bullet>   115: Number of Army suicides in 2007, a nearly 10 
percent increase since 2006.
    <bullet>   2,100: The number of attempted suicides and self-
injuries in 2007, as reported by the Army. There were less than 1,500 
in 2006 and less than 500 in 2002.
    <bullet>   55 percent: The percentage of suicide cases in 2006 that 
involved soldiers who were serving or had served at some point over the 
preceding five years in Iraq or Afghanistan.

    A Strained System

    <bullet>   Over 100,000 percent: The number of mental health 
diagnoses the VA has already given to Iraq and Afghanistan veterans, or 
38 percent of new veterans who visited the VA for any reason.
    <bullet>   150 percent: The percentage increase in VA disability 
pay for PTSD among veterans between 1999 and 2004--or $4.2 billion.
    <bullet>   200:1: The ratio that patients outnumber primary care 
managers in some major military facilities. Until recently, the ratio 
was 1200:1.
    <bullet>   22 percent: The percentage decrease of licensed 
psychologists in the military in recent years.

    Mr. Loebsack. C.  According to Admiral Mullen, ``the most likely 
near term attack on the United States will come from al Qaeda'' via the 
safe havens in the under-governed regions of Pakistan. How would 
current commitments and readiness levels affect the timelines and 
effectiveness of our response to an unforeseen contingency along the 
Afghanistan-Pakistan border or elsewhere?

    Mr. Krob. The pace of deployments to Iraq has significantly 
impacted our ability to send more troops to Afghanistan, as the meager 
temporary deployment of 3,200 Marines to Afghanistan this spring has 
demonstrated.
    Army Vice Chief of Staff, Gen. Cody testified before the Senate 
Armed Services Committee that the Army no longer has any fully ready 
combat brigades on standby should a threat or conflict occur. ``I've 
never seen our lack of strategic depth be where it is today,'' said 
Cody, who has been the senior Army official in charge of operations and 
readiness for the past six years.
    Chairman of the Joint Chiefs of Staff, Navy Adm. Michael G. Mullen, 
echoed Cody's concern. ``Clearly, if we had to do something with our 
ground forces, a significant substitute would be a big challenge.'' he 
acknowledged in January of this year.
    The Marine Corps' ability to train for potential conflicts has also 
been ``significantly degraded,'' said Gen. Robert Magnus, assistant 
commandant of the Marine Corps, in testimony before the Senate Armed 
Services Committee this last April. Gen. Manus went on to state that 
the current pace of operations is, ``unsustainable.''
    Mr. Loebsack. Last week, General Cody appeared before this 
Committee and stated that the army is ``out of balance'', that we are 
``unprepared for the full-spectrum fight and lack the strategic depth 
that has been our traditional fallback for the uncertainties of this 
world.''
    In Iowa, we have seen how our National Guard has born much of the 
brunt of the current readiness strain of our ground forces, leaving our 
Nation's first line of defense against emergencies--of any nature--
depleted, and our homeland less secure.
    To date, the Iowa National Guard has mobilized 10,000 Soldiers and 
Airmen in support of operation in Iraq and Afghanistan. Every Iowan is 
deeply proud of the service and dedication of our National Guard men 
and women.
    However, as the Adjutant General of the Iowa National Guard Major 
General Ron Dardis, has stated, the Iowa Guard and their families are 
``stressed and strained.''
    When the 224<SUP>th</SUP> Engineer Battalion, which is based in my 
District, was deployed to Iraq it was at 100% equipment readiness. When 
it redeployed, it was forced to leave most of its equipment in theater, 
leaving it with 30% of its required equipment.
    When the 833<SUP>rd</SUP> Engineer company, also based in my 
District, was recalled to Iraq after only 14 MONTHS at home, they had 
no equipment on which to train.
    To say that this training, equipment, and readiness situation is 
alarming is a gross understatement. Iowa leans heavily on its National 
Guard for emergency response. Guard units operating with 30% of their 
equipment and with only 14 months of dwell time are simply not in a 
position to respond to an emergency at home--or be called up as an 
operational force to responds to threats facing our Nation abroad.

      1.   Last week General Cody told me that, even once the Grow the 
Force Initiative is complete, our ground forces will be operating at a 
1:2 dwell time ration while the size and pace of our current 
deployments continue. DOD's deployment policy currently requires 
Reserve components to meet a 1 in 5 deployment ratio. This was clearly 
not the case for the 833<SUP>rd</SUP> Engineer Company nor for the many 
units across the country that are experiencing 1 to 1 deployment 
ratios.

          a.   Can you please outline for me what, in your belief, must 
        be achieved in dwell time ratios in order to assure that our 
        ground forces--both active duty and reserve--are properly 
        trained, equipped, and rested?

          b.   What are the strategic risks associated with continuing 
        deployments at the current rate? What are the risks to our 
        servicemembers and their families?

          c.   According to Admiral Mullen, ``the most likely near term 
        attack on the United States will come from al Qaeda'' via the 
        safe havens in the under-governed regions of Pakistan. How 
        would current commitments and readinesss levels affect the 
        timeliness and effectiveness of our response to an unforeseen 
        contingency along the Afghanistan-Pakistan border or elsewhere?

    Thank you. I believe that it is imperative that Congress 
acknowledge and address the declining readiness of the ground forces in 
the interest of our security at home and abroad. I strongly believe 
that we must commit to restoring the readiness of the military, 
particularly the ground forces, in order to mitigate the strategic risk 
of our current readiness shortfalls.
    Mr. Donnelly. Thank you, Mr. Loebsack, for your important and 
incisive questions. In our recent book, Ground Truth: The Future of 
U.S. Land Power, Fred Kagan and I addressed a number of the issues that 
you have raised. Our core argument is that the insufficient size of 
America's land forces is the most significant constraint on U.S. 
military strategy. In order to address the dire divergence between 
American military ends and American military means, Fred and I have 
argued that the United States requires a million-man active-duty land 
force, with a proper balance of marines and soldiers, configured in 
such a way as to win the conficts that have come to characterize the 
Long War on terrorism. In order to meet the full spectrum of the 
nation's needs, however, we must look beyond the number of active 
brigades and regiments. We must also restore the role of the National 
Guard and reserve components as genuine strategic reserve, not simply 
another pool of resources to meet immediate rotational requirements.
    For five years, activated reservists and National Guardsmen have 
been providing 15 to 20 percent of present U.S. Army active strength. 
As a result, they no longer represent a strategic reserve, hedging 
against unforeseen contingencies, but an operational reserve. As such, 
they are being strained by the rotational demands of Iraq, Afghanistan, 
and other Long War efforts just like the regular force. In sum, the 
failure to expand, refit, and restructure U.S. land forces in a timely 
fashion that the 9/11 attacks has left the Army and Marine Corps 
brittle. The force certainly is not broken, but its institutional basis 
is cracking.
    The growing willingness of the senior military leadership to see 
Guard units as operational rather than strategic reserves is sure to 
have implications for their training and their availability for 
traditional homeland security and disaster relief missions, but the 
trade-offs are not clear-cut. As long as America faces an urgent need 
for combat power in ongoing wars, the priority must go to addressing 
that need, rather than keeping force at home for possible 
contingencies. Nevertheless, the military remains the only force that 
can reliably and quickly respond to large scale disasters. This 
capability, therefore, must continue to be resourced as a core mission, 
not simply as a lesser included requirement, even as the Guard is takes 
on additional missions in Iraq and Afghanistan.
    With regard to the necessary length of dwell times, I would call 
your attention to a series of observations by Lieutenant General Ray 
Odierno. Since April 2007, Lieutenant General Odierno has been 
frequently questioned as to the strains that extended, 15-month tours 
and the 1:1 dwell time ratio has exacted on his soldiers. In response, 
he has pointed out that there are two good ways to relieve these 
strains: first, win the war that we are fighting; second, increase the 
size of our ground forces. The sooner we accomplish either of these 
objectives, the sooner our forces can come home. Constraining the 
number and rate at which forces can be deployed only serves to extend 
and jeopardize the success of the missions in Iraq and Afghanistan.
    As Fred and I argue in Ground Truth, the current strain on 
America's ground forces has required the armed services to accept an 
increasing imbalance among the active and reserve components and their 
missions. America's ground forces can mitigate this imbalance, first 
and foremost, by increasing their numbers dramatically--though that 
would simply be a starting point. Any effort to grow U.S. ground forces 
must also be supplemented by an effort to reshape, restructure, and 
reequip them. Improving this balance and growing the force would ease 
the burden on soldiers and marines, who would need to be deployed less 
often, as well as on the National Guard and Reserves, which could 
pursue their true functions instead of being called upon to make up any 
shortages in Army manpower.

                                  <all>

</pre></body></html>
